  DEPARTMENT OF HOMELAND SECURITY

           Office of Inspector General

                      Information Technology
                         Management Letter
                        for the FY 2005 DHS
                     Financial Statement Audit
                              (Redacted)




 Notice: The Department of Homeland Security, Office of Inspector General, has redacted
 this report for public release. The redactions are identified as (b)(2), comparable to 5
 U.S.C. § 552 (b)(2). A review under the Freedom of Information Act will be conducted upon
 request.




            Office of Information Technology
OIG-06-49                                                                  July 2006
                                                                         Office of Inspector General

                                                                         U.S. Department of Homeland Security
                                                                         Washington, DC 20528




                                          July 10, 2006

                                              Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was established by
the Homeland Security Act of 2002 (Public Law 107-296) by amendment to the Inspector General
Act of 1978. This is one of a series of audit, inspection, and special reports published by our office
as part of our DHS oversight responsibility to promote economy, effectiveness, and efficiency within
the department.

This report presents the information technology (IT) management letter for DHS’ FY 2005 financial
statement audit. It contains observations and recommendations related to information technology
internal control that were not required to be reported in the financial statement audit report (OIG-06-
09, November 2005) and represents the separate restricted distribution report mentioned in that
report. The independent accounting firm KPMG LLP (KPMG) performed the audit of DHS’
financial statement as of September 30, 2005, and prepared this IT management letter. KPMG is
responsible for the attached IT management letter dated December 15, 2005, and the conclusions
expressed in it. We do not express opinions on DHS’ financial statements or internal control or
conclusion on compliance with laws and regulations.

The recommendations herein have been discussed in draft with those responsible for
implementation. It is our hope that this report will result in more effective, efficient, and economical
operations. We express our appreciation to all of those who contributed to the preparation of this
report.


                                              Richard L. Skinner
                                              Inspector General
                                Department of Homeland Security
                            Information Technology Management Letter
                                       September 30, 2005




                 INFORMATION TECHNOLOGY MANAGEMENT LETTER

                                     TABLE OF CONTENTS
                                                                                            Page

Objective, Scope and Approach                                                                1

Summary of Findings and Recommendations                                                      2

Findings by Audit Area                                                                       2

       Entity-Wide Security Program Planning and Management                                  2

       Access Controls                                                                       3

       Application Software Development and Change Controls                                  4

       System Software                                                                       4

       Segregation of Duties                                                                 5

       Service Continuity                                                                    5

       Application Controls                                                                  6

                                         APPENDICES

    Appendix                                        Subject                                 Page


                    Description of Key Financial Systems and IT Infrastructure within the
        A                                                                                    8
                    Scope of the FY 2005 DHS Financial Statement Audit



                    FY 2005 Notice of IT Findings and Recommendations - Detail by DHS
        B                                                                                    15
                    Organizational Element



                    Status of Prior Year Notices of Findings and Recommendations and
        C                                                                                    53
                    Comparison to Current Year Notices of Findings and Recommendations


        D           Management Response to Draft DHS IT Management Letter                    59
                               Department of Homeland Security
                           Information Technology Management Letter
                                      September 30, 2005


                OBJECTIVE, SCOPE AND APPROACH
KPMG performed an audit of DHS IT general controls in support of the FY 2005 DHS financial
statement engagement. The overall objective of our audit was to evaluate the effectiveness of IT
general controls of DHS’ financial processing environment and related IT infrastructure as necessary
to support the engagement. The Federal Information System Controls Audit Manual (FISCAM),
issued by the Government Accountability Office, formed the basis of our audit. The scope of the IT
general controls assessment included testing at DHS’ Office of the Chief Financial Officer (OCFO),
and all significant DHS component as described in Appendix A.

FISCAM was designed to inform financial auditors about IT controls and related audit concerns to
assist them in planning their audit work and to integrate the work of auditors with other aspects of the
financial audit. FISCAM also provides guidance to IT auditors when considering the scope and
extent of review that generally should be performed when evaluating general controls and the IT
environment of a federal agency. FISCAM defines the following six control functions to be essential
to the effective operation of the general IT controls environment.

    •   Entity-wide security program planning and management (EWS) – Controls that provide a
        framework and continuing cycle of activity for managing risk, developing security policies,
        assigning responsibilities, and monitoring the adequacy of computer-related security controls.
    •   Access control (AC) – Controls that limit and/or monitor access to computer resources (data,
        programs, equipment, and facilities) to protect against unauthorized modification, loss, and
        disclosure.
    •   Application software development and change control (ASDCC) – Controls that help to
        prevent the implementation of unauthorized programs or modifications to existing programs.
    •   System software (SS) – Controls that limit and monitor access to powerful programs that
        operate computer hardware.
    •   Segregation of duties (SD) – Controls that constitute policies, procedures, and an
        organizational structure to prevent one individual from controlling key aspects of computer-
        related operations, thus deterring unauthorized actions or access to assets or records.
    •   Service continuity (SC) – Controls that involve procedures for continuing critical operations
        without interruption, or with prompt resumption, when unexpected events occur.

In addition to testing DHS’ general control environment, KPMG performed application control tests
on a limited number of DHS financial systems and applications. The application control testing was
performed to assess the controls that support the financial systems’ internal controls over the input,
processing, and output of financial data and transactions.

    •   Application Controls (APC) - Application controls are the structure, policies, and procedures
        that apply to separate, individual application systems, such as accounts payable, inventory,
        payroll, grants, or loans.

To complement our general IT controls audit, we also performed technical security testing for key
network and system devices, as well as testing over key financial application controls. The technical
security testing was performed both over the Internet and from within select DHS facilities, and was
focused on test, development, and production devices that directly support DHS financial processing
and key general support systems.

        Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                             1
                               Department of Homeland Security
                           Information Technology Management Letter
                                      September 30, 2005


    SUMMARY OF FINDINGS AND RECOMMENDATIONS
During FY 2005 DHS took corrective action to address many prior year IT control weaknesses.
However, during FY 2005, we continued to find IT general control weaknesses at each DHS
component. The most significant information security weaknesses from a financial statement audit
perspective relate to entity-wide security, access controls, and service continuity. Collectively, these
IT control weaknesses limit DHS’ ability to ensure that critical financial and operational data is
maintained in such a manner to ensure confidentiality, integrity, and availability. In addition, these
weaknesses negatively impact the internal controls over DHS financial reporting and its operation,
and we consider them to collectively represent a material weakness for financial system security
under standards established by the AICPA and accepted by the GAO.

During fiscal year 2005, DHS took several actions to improve its IT general control environment, and to
address many prior year general IT control issues. For example, the Coast Guard has begun performing
regular technical vulnerability scans on their information technology network and key systems. These
scans resulted in the reduction of the number of conditions our audit team identified during our testing. In
addition, DHS issued an update to DHS Policy 4300A, Sensitive System Handbook. The purpose of this
Handbook update was to provide specific techniques and procedures for implementing the requirements
of DHS’ IT Security Program for Sensitive Systems. These actions resulted in the correction of some
conditions we reported in 2004. DHS needs further emphasis on the monitoring and enforcement of the
policies and procedures through the performance of periodic security control assessments and audits.

                       FINDINGS BY IT AUDIT AREA
Entity-Wide Security Program Planning and Management

During FY 2005 DHS continued to make progress in having all of its financial systems certified and
accredited. However, continued efforts are needed, especially in the areas of program management
related to the detection and monitoring of technical information security weaknesses. Collectively,
the identified entity-wide security planning and management issues, coupled with the access control
issues described later in this management letter, reduce the overall effectiveness of the entity-wide
security programs for the individual DHS components and the overall Department.

Conditions noted in FY 2005 regarding entity-wide security program planning and management at
DHS were:

•   EWS-05–1: Despite improvements in the process of performing Certification and Accreditation
    (C&A) of IT systems, five DHS component financial and associated feeder systems were not properly
    certified and accredited.
•   EWS-05-2: Instances of fragmented, incomplete, or missing security policies and procedures relating
    to the hiring and termination of employees, reviewing of access to key financial systems, computer
    incident response capabilities, and interconnectivity agreements exist.

Recommendations:

We recommend that the DHS Office of Chief Information Officer in coordination with the OCFO:
        Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                             2
                               Department of Homeland Security
                           Information Technology Management Letter
                                      September 30, 2005

a) Ensure adherence to a DHS C&A program across all DHS components, which should include an
   emphasis on a consistent and thorough approach to the testing of key technical controls during the
   certification process; and
b) Ensure the consistent implementation of security programs, policies, and procedures.

Access Controls

During FY 2005 we noted significant access control vulnerabilities with internal IT systems (i.e.,
inside the components’ firewalls). These are significant issues because personnel inside the
organization who best understand the organization’s systems, applications, and business processes are
able to have unauthorized access to some systems and applications. Some of the identified vulnerable
devices are used for test and development purposes. In some cases, users are able to access test and
development devices with group passwords, system default passwords, or the same passwords with
which they log into production devices. As a result, test and development devices could be a target of
hackers/crackers to obtain information (i.e., user password listings) that can be used to attempt further
access into DHS’ IT environment.

Conditions noted in FY 2005 regarding access controls at DHS were:

•   AC-05-1: Instances of missing and weak user passwords on key servers and databases.
•   AC-05-2: User account lists were not periodically reviewed for appropriateness, and inappropriate
    authorizations and excessive access privileges for group user accounts were allowed.
•   AC-05-3: Instances where workstations, servers, or network devices were configured without
    necessary security patches, or were not configured in the most secure manner.
•   AC-05-4: Application and operating system settings were not configured for automatic log-off or
    account lockout.

Recommendations:

We recommend that the DHS Office of Chief Information Officer in coordination with the OCFO:
a) Ensure that password controls meet DHS password requirements on all key financial systems;
b) Implement an account management certification process within all the components, to ensure the
   periodic review of user accounts for appropriate access;
c) Implement a DHS-wide patch and security configuration process, and ensure compliance with the
   requirement that systems are periodically tested by individual DHS components and the DHS-CIO;
   and
d) Conduct periodic vulnerability assessments, whereby systems are periodically reviewed for access
   controls not in compliance with DHS and Federal guidance.




        Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                             3
                               Department of Homeland Security
                           Information Technology Management Letter
                                      September 30, 2005


Application Software Development and Change Control

During FY 2005 we noted that DHS took corrective actions to address IT control issues related to
application software changes. However, we noted that in some cases the application software change
control documentation was still not consistent with DHS systems development life cycle (SDLC)
guidance.

Conditions noted in FY 2005 regarding application system development and change control at DHS
and its components were:

•   ASDCC-05-1: Instances where policies and procedures regarding configuration management
    controls were not in place to prevent users from having concurrent access to the development, test,
    and production environments of the system.
•   ASDCC-05-2: Changes made to the configuration of the system were not always documented
    through System Change Requests (SCRs), test plans, test results, or software modifications.
    Additionally, documented approval did not exist, or was not always retained, for emergency
    enhancements, “bug” fixes, and data fixes, and in some cases, audit logs for tracking changes to the
    data or systems were not activated.

Recommendations:

We recommend that the DHS Office of Chief Information Officer in coordination with the OCFO:

a) Develop and implement policies and procedures regarding configuration management controls, and
   ensure that users do not have concurrent access to development, test, and production environments;
   and
b) Ensure adherence to policies that require changes to the configuration of the system are approved and
   documented, and audit logs are activated and reviewed on a periodic basis.

System Software

We noted weaknesses in programs designed to operate and control the processing activities of
computer equipment. Weaknesses in this control area, closely linked to entity-wide security and
access controls, increase the likelihood that unauthorized individuals using system software could
circumvent security controls to read, modify, or delete critical or sensitive information and programs.
Authorized users of the system could gain unauthorized privileges to conduct unauthorized actions;
and/or systems software could be used to circumvent edits and other controls built into application
programs.

Conditions noted regarding system software at DHS were:

•   SS-05-1: Instances where policies and procedures for restricting and monitoring access to operating
    system software were not implemented or were inadequate. In some cases, the ability to monitor
    security logs did not exist.

        Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                             4
                               Department of Homeland Security
                           Information Technology Management Letter
                                      September 30, 2005


•   SS-05-2: Changes to sensitive operating system settings and other sensitive utility software and
    hardware were not always documented.

Recommendation:

We recommend that the DHS Office of Chief Information Officer, in coordination with the OCFO,
monitor the use, and changes related to operating systems, and other sensitive utility software and
hardware.

Segregation of Duties

During FY 2005, we continued to note instances where an individual controlled more than one critical
function within a process, increasing the risk that erroneous or fraudulent transactions could be
processed, improper program changes could be implemented, and computer resources could be
damaged or destroyed, without detection. Additionally, we noted a lack of segregation of duties
between major operating and programming activities, including duties performed by users,
application programmers, and data center staff.

Conditions noted regarding segregation of duties at DHS were:

•   SD-05-1: Instances where individuals were able to perform incompatible functions, such as the
    changing, testing, and implementing of software, without sufficient compensating controls in place.
•   SD-05-2: Instances where key security positions were not defined or assigned, and descriptions of
    positions were not documented or updated.

Recommendations:

We recommend that the DHS Office of Chief Information Officer in coordination with the OCFO:
a) Document user responsibilities so that incompatible duties are consistently separated. If this is not
   feasible given the smaller size of certain functions, then sufficient compensating controls, such as
   periodic peer reviews, should be implemented; and
b) Assign personnel to key security positions, and ensure that position descriptions are kept current.

Service Continuity

During FY 2005 we noted that DHS took some corrective actions to address IT control issues related
to developing contingency plans and the back-up and protection of critical system data. Despite these
improvements, weaknesses related to business continuity plans continue to exist. These issues are
important because losing the capability to process, retrieve, and protect information maintained
electronically can significantly affect an agency’s ability to accomplish its mission.

Conditions noted regarding service continuity at DHS were:



        Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                             5
                               Department of Homeland Security
                           Information Technology Management Letter
                                      September 30, 2005


•   SC-05-1: Five DHS components had incomplete or outdated business continuity plans and systems
    with incomplete or outdated disaster recovery plans. Some plans did not contain current system
    information, emergency processing priorities, procedures for backup and storage, or other critical
    information.
•   SC-05-2: Five DHS component’s service continuity plans were not consistently and/or adequately
    tested, and individuals did not receive training on how to respond to emergency situations.

Recommendations:

We recommend that the DHS Office of Chief Information Officer in coordination with the OCFO:

a) Develop and implement complete and current business continuity and system disaster recovery plans,
   and
b) Perform component-specific and DHS-wide testing of key service continuity capabilities, and assess
   the need to provide appropriate and timely emergency training.

Application Controls

During FY2005, we noted several instances of weak access and segregation of duty controls associated
with key DHS financial applications, such as a DHS component’s core financial application, as well as
procurement and payable applications. These weaknesses include weak or expired user passwords, user
accounts that were not kept current, and certain users with access privileges to certain key processes of an
application. Many of these weaknesses were identified during our general control testing of access
controls and segregation of duties; however, since these same issues also impact controls over specific
key financial applications, they are reported here as well.

Conditions noted regarding application controls at DHS and its components were:

•   APC-05-1: Instances of missing and weak user passwords on key application servers and
    databases.
•   APC-05-2: User account lists were not periodically reviewed for appropriateness, and inappropriate
    authorizations and excessive access privileges for group user accounts were allowed.
•   APC-05-3: Instances where individuals were able to perform incompatible functions, such as the
    changing, testing, and implementing of software, without sufficient compensating controls in place.

Recommendations:

We recommend that the DHS Office of Chief Information Officer in coordination with the OCFO:

a) Ensure that password controls meet DHS password requirements on all key financial systems;
b) Implement an account management certification process within all the components, to ensure the
   periodic review of user accounts for appropriate access; and

        Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                             6
                                  Department of Homeland Security
                              Information Technology Management Letter
                                         September 30, 2005

   c) Document the user responsibilities so that incompatible duties are consistently separated. If this is
      not feasible given the smaller size of certain functions, then sufficient compensating controls, such as
      periodic peer reviews, should be implemented.


MANAGEMENT COMMENTS AND OIG EVALUATION

We obtained written comments on a draft of this report from the DHS CIO. Generally, the DHS CIO
agreed with all of the report’s findings and recommendations. However as noted in the summary section
of the status spreadsheet, components did not concur with ten (10) of the NFRs and the DHS CIO is
currently working to fully document all “non-concurs.” We have incorporated the comments where
appropriate and included a copy of the comments at Appendix D.



OIG Response

We accept the DHS CIO’s response to the recommendations in this report and are encouraged that the
DHS CIO will work with each DHS component to ensure that a Plan of Action and Milestones (POA&M)
is developed for each of the 88 NFRs. We are also encouraged by the DHS CIO’s commitment to take
corrective actions on these IT NFRs during the FY 2006 DHS Financial Statement Audit. However, the
DHS CIO’s response did not provide details on any planned corrective actions for each of the
recommendations outlined in this report. KPMG will follow up on the corrective actions for these
recommendations during the FY 2006 Financial Statement Audit.




           Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                7
                             Department of Homeland Security
                         Information Technology Management Letter
                                    September 30, 2005




                                       Appendix A

Description of Key Financial Systems and IT Infrastructure within
    the Scope of the FY 2005 DHS Financial Statement Audit




      Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                           8
                                                                                             Appendix A

                               Department of Homeland Security
                           Information Technology Management Letter
                                      September 30, 2005


Below is a description of significant DHS financial management systems and supporting IT
infrastructure included in the scope of the financial statement audit for the twelve months ended
September 30, 2005.

United States Citizen and Immigration Services (USCIS)

Locations of Audit: USCIS Headquarters in Washington, D.C., as well as offices in Texas, Vermont
and Nebraska.

Key Systems Subject to Audit:

•   Federal Financial Management System (FFMS) – The Immigration and Customs Enforcement
    (ICE) component owns and operates FFMS. ICE performs the financial reporting function for
    USCIS, using FFMS per the shared services agreement with USCIS. FFMS is a commercial off-
    the-shelf financial reporting system that was fully implemented in FY 2003. FFMS is the official
    system of record and is built in Oracle 8i Relational Database Management System. It includes
    the core system used by accountants, FFMS Desktop, which is used by average users, and a
    National Finance Center payroll interface. FFMS supports all USCIS core financial processing.
    FFMS uses a Standard General Ledger (SGL) for the accounting of agency financial transactions.

•   Claims 3 Local Area Network (LAN) – Claims 3 LAN provides USCIS with a decentralized LAN
    based system that supports the requirements of the Direct Mail Phase I and II, Immigration Act of
    1990 (IMMACT 90) and USCIS Forms Improvement projects. The Claims 3 LAN is located at
    each of the service centers (Nebraska, California, Texas, Vermont, and the National Benefits
    Center). The main purpose of Claims 3 is to enter and track immigration applications.

•   Claims 4 - The purpose of Claims 4 is to track and manage naturalization applications. Claims 4
    resides on multiple platforms, including a Siemens E70 located in Dallas, Texas. Claims 4 data is
    centrally stored within one Oracle Database. Software is developed and maintained in the Oracle
    relational database (RDBMS) and Microsoft Visual Basic environments.

Immigration and Customs Enforcement (ICE)

Locations of Audit: ICE Headquarters in Washington, D.C., as well as offices in Texas, Vermont and
Nebraska.

Key System Subject to Audit:

•   Federal Financial Management System (FFMS) – ICE owns and operates FFMS. ICE performs
    the financial reporting function for CIS, MGT, IAIP, and S&T using FFMS per the shared
    services agreement these agencies have with ICE. FFMS is a commercial off-the-shelf financial
    reporting system that was fully implemented in FY 2003. FFMS is the official system of record
    and is built in Oracle 8i Relational Database Management System. It includes the core system
    used by accountants, FFMS Desktop that is used by average users, and a National Finance Center
    payroll interface. FFMS supports all USCIS/ICE core financial processing and uses a Standard
    General Ledger (SGL) for the accounting of agency financial transactions.


        Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                             9
                                                                                                          Appendix A

                                    Department of Homeland Security
                                Information Technology Management Letter
                                           September 30, 2005

United States Coast Guard

Locations of Audit: Coast Guard Headquarters in Washington, DC; the Aviation Repair and Supply
Center (ARSC) in Elizabeth City, North Carolina; ---------------------------------------------------- ---
--------------- ------------------------------------ -------------------------------------------- ----------------------
-------------------------------- ---------------- --------------

Key Systems Subject to Audit:

•   Core Accounting System (CAS) – CAS is the core accounting system that records financial
    transactions and generates financial statements for the Coast Guard. CAS is hosted at ---------- ,
    the Coast Guard’s primary data center.

•   Financial Procurement Desktop (FPD) – The FPD application used to create and post obligations
    to the core accounting system. It allows users to enter funding, create PR’s, issue procurement
    documents, perform system administration responsibilities, and reconcile weekly Program
    Element Status (PES) reports.

•   Workflow Imaging Network System (WINS) - WINS is the document image processing system,
    which is integrated with an Oracle Developer/2000 relational database. WINS allows electronic
    data and scanned paper documents to be imaged and processed for data verification,
    reconciliation and payment. WINS utilizes MarkView software to scan documents and to view
    the images of scanned documents and to render images of electronic data received.

•   Naval Electronics Supply Support System (NESSS) – Formerly named the Supply Center
    Computer Replacement System (SCCR), NESSS is hosted at------- NESSS is the primary
    financial application for the Engineering Logistics Command (ELC), the Supply Fund, and the
    Yard fund. Also housed at ----- is the Fleet Logistics System (FLS), a web-based application
    designed to automate the management of Coast Guard vessel logistics by supporting the following
    functions: configuration, maintenance, supply and finance. In addition, ----- is responsible for
    CMPlus, the central repository for activities associated with maintaining Coast Guard assets at the
    unit level.

Several other key Coast Guard financial applications support military personnel and payroll, retired
pay, and travel claims. These applications are hosted at the PSC, which was formerly known as the
Human Resources Services and Information Center. These applications include the Personnel
Management Information System (PMIS) and the Joint Uniform Military Pay System (JUMPS). Also
housed at PSC is the PeopleSoft 8.3 Direct Access application, which is used by members for self-
service functions, including updating and viewing personal information.

In addition, the Coast Guard maintains hosts on the Internet in thirteen Internet Protocol (IP) address
ranges. Hosts within these ranges support various Web based applications, e-mail servers, and File
Transfer Protocol (FTP) servers.




         Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                    10
                                                                                                        Appendix A

                                   Department of Homeland Security
                               Information Technology Management Letter
                                          September 30, 2005

United States Customs and Border Protection (CBP)

Locations of Audit: ------- --------------------------------------------------------------- ---------------- -
----------------------------------------------------------------

Key Systems Subject to Audit:
Below is a description of significant CBP financial management systems and supporting IT
infrastructure included in the scope of the September 30, 2005 CBP consolidated balance sheet audit.

•   --------------- ---------------- ---------------- ---------- -------- was decommissioned in FY 2005 and
    replaced by SAP. It was CBP's IBM --- ----- -- - -based financial management system that
    supported primary financial accounting and reporting processes, and a number of additional
    subsystems for specific operational and administrative management functions. The core system
    consisted of general ledger, accounts receivable, disbursements/payables, purchasing, and budget
    execution modules. ---------was hosted on a customized version of ---- --------------------- ---
    --- ----- - ----- --------------------------------- ----- --------

•   ---------- ------- is a client/server-based financial management system that was implemented
    beginning in FY 2004 to ultimately replace the ------- ---------------- ---------------- --- ----- ------ -
    using a phased approach. The ---------------------- ---- - -- - --- -- ------ was implemented and utilized
    in FY 2004. In FY 2005, the Funds Management, Budget Control System, General Ledger,
    Internal Orders, Sales and Distribution, Special Purpose Ledger, and Accounts Payable modules
    were implemented.

•   --------------- - ---------------------------- -------- is a collection of mainframe-based applications
    used to track, control, and process all commercial goods, conveyances and private aircraft
    entering the United States territory, for the purpose of collecting import duties, fees, and taxes
    owed the Federal government.

•   ---------------- ------------------------------------------------ – Used for tracking seized assets, Customs
    Forfeiture Fund, and fines & penalties.

DHS Consolidated

Location of Audit: DHS Headquarters in Washington, D.C.

Key Systems Subject to Audit:

•   Treasury Information Executive Repository (TIER) – The system of record for the DHS
    consolidated financial statements is TIER. The DHS components update TIER on a monthly
    basis with data extracted from their core financial management systems. TIER subjects
    component financial data to a series of validation and edit checks before it becomes part of the
    system of record. Data cannot be modified directly in TIER, but must be resubmitted as an input
    file.

•   CFO Vision – CFO Vision interfaces with TIER, and is used for the consolidation of the financial
    data and the preparation of the DHS financial statements.

         Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                  11
                                                                                             Appendix A

                               Department of Homeland Security
                           Information Technology Management Letter
                                      September 30, 2005

The TIER and CFO Vision applications reside on the Department of Treasury’s (Treasury) network
and are administered by Treasury. Treasury is responsible for the administration of the TIER
Windows NT server, Oracle 8i database, and the TIER and CFO Visions applications. The DHS
Office of Financial Management (OFM) is responsible for the administration of DHS user accounts
within the TIER and CFO Vision applications.

Limited Scope

Location of Audit: We performed follow-up on a FY 2003 finding at the ---- - --------------------- ----
---------------- ------------------------------- ------- - ------ - ------

System Subject to Audit:
The Momentum Financial System is FLETC’s core computerized system that processes financial
documents generated by various FLETC divisions in support of procurement, payroll, budget and
accounting activities.

Federal Emergency Management Agency (FEMA)

Locations of Audit: FEMA Headquarters in Washington, D.C., and the------ - - ------------------------
------- -------- - ------------------------------ ----------------

Key Systems Subject to Audit:

•   Integrated Financial Management Information System (IFMIS) – IFMIS is the key financial
    reporting system, and has several feeder subsystems (budget, procurement, accounting, and other
    administrative processes and reporting).

•   National Emergency Management Information System (NEMIS) – NEMIS is an integrated system
    to provide FEMA, the states, and certain other federal agencies with automation to perform
    disaster related operations. NEMIS supports all phases of emergency management, and provides
    financial related data to IFMIS via an automated interface.

•   Logistical Information Management System (LIMS III) – LIMS III provides for material
    management, maintenance, and logistics reporting.

•   National Flood Insurance Program System – The system provides loss projections, recovery
    rates, and, maintains customer records for the flood insurance program.

•   Quicktime - Time and Attendance Collection System – A web-based system used to collect hours
    worked and leave used by all employees in FEMA. The data collected is transmitted to the
    National Finance Center for paycheck preparation.

Office of State and Local Government Coordination and Preparedness (SLGCP)

Location of Audit: SLGCP Headquarters in Washington, D.C.

Key Systems Subject to Audit:


        Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                             12
                                                                                             Appendix A

                               Department of Homeland Security
                           Information Technology Management Letter
                                      September 30, 2005

SLGCP’s IT platforms are hosted and supported by the Department of Justice’s Office of Justice
Programs (OJP). The following is a list of key financial related applications supporting SLGCP.

•   IFMIS (same application as FEMA’s, but hosted at OJP) – IFMIS consists of five modules that
    include: budget, cost posting, disbursement, general ledger, and accounts receivable. Users
    access the system through individual workstations that are installed throughout SLGCP and OJP.
    The current IFMIS version does not have the ability to produce external federal financial reports
    (i.e., SF132 and SF133) and financial statements. IFMIS was updated in February 2002 with the
    version certified by the Joint Financial Management Improvement Program (JFMIP).

•   Grants Management System (GMS) – GMS supports the SLGCP grant management process
    involving the receipt of grant applications and grant processing activities. GMS is divided into
    two logical elements. There is a grantee and an administration element within the system. The
    grantee component provides the Internet interface and functionality required for all of the
    grantees to submit grant applications on-line. The second component, the administration
    component, provides SLGCP/OJP personnel the tools required to store, process, track and
    ultimately make decisions about the applications submitted by the grantee. This system does not
    interface directly with IFMIS.

•   Line of Credit Electronic System (LOCES) – The LOCES allows recipients of SLGCP funds to
    electronically request payment from OJP on one day and receive a direct deposit to their bank for
    the requested funds usually on the following day. Batch information containing draw down
    transaction information from LOCES is transferred to IFMIS. The IFMIS system then interfaces
    with Treasury to transfer payment information to Treasury, resulting in a disbursement of funds
    to the grantee.

•   Paperless Request System (PAPRS) – This system allows grantees to access their grant funds.
    The system includes a front and back end application. The front-end application provides the
    interface where grantees make their grant requests. The back end application is primarily used by
    accountants and certifying officials. The back end application also interfaces with the IFMIS
    application. Batch information containing draw down transaction information from PAPRS is
    interfaced with IFMIS. The IFMIS system then interfaces with Treasury to transfer payment
    information to Treasury, resulting in a disbursement of funds to the grantee.

Transportation Security Administration (TSA)

Locations of Audit: TSA Headquarters in Washington, D.C. ----- - ----------------------------------------
--------------- ---------- TSA’s financial applications are hosted on the Coast Guard’s IT platforms.

Key Systems Subject to Audit:
The Coast Guard is a service provider for Transportation Security Administration (TSA) by
maintaining the Core Accounting System. This application is housed at the ---------------- -------- -
----------------------------------------

•   Core Accounting System (CAS) – CAS is the core accounting system that records financial
    transactions and generates financial statements for TSA. CAS is hosted at ----------- the Coast
    Guard’s primary data center.


        Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                             13
                                                                                                  Appendix A

                                 Department of Homeland Security
                             Information Technology Management Letter
                                        September 30, 2005

•   Financial Procurement Desktop (FPD) – The FPD application used to create and post obligations
    to the core accounting system. It allows users to enter funding, create PR’s, issue procurement
    documents, perform system administration responsibilities, and reconcile weekly PES Reports.

•   Workflow Imaging Network System (WINS) - WINS is the document image processing system,
    which is integrated with an Oracle Developer/2000 relational database. WINS allows electronic
    data and scanned paper documents to be imaged and processed for data verification,
    reconciliation and payment. WINS utilizes MarkView software to scan documents and to view
    the images of scanned documents and to render images of electronic data received.

•   Consolidated Uniform Payroll System (CUPS) – CUPS maintains TSA payroll data, calculates
    pay, wages, tax information and maintains service history and separation records. CUPS
    interfaces with the Integrated Personnel and Payroll System (IPPS), Little IPPS, CUPS National,
    CPMIS, DELPHI, and also receives other data inputs. CUPS is a mainframe application.

•   Consolidated Personnel Management Information System (CPMIS) – CPMIS is the DOT
    personnel management system. The system processes and tracks personnel actions and employee
    related data for TSA, including employee elections for the Thrift Savings Plan (TSP), life
    insurance, and health insurance as well as training data and general employee information (i.e.
    name, address, etc.). CPMIS is also used to maintain information related to budget, training, civil
    rights, labor relations and security. CPMIS is a mainframe application. CPMIS interfaces with
    CUPS to allow CUPS to perform the calculation of pay, time and attendance reporting, leave
    accounting, and wage and tax reporting. CUPS also uses the information received from CPMIS to
    initiate payroll deductions for TSP, insurances, Combined Federal Campaign contributions, and
    savings bonds.

•   Integrated Personnel And Payroll System (IPPS) – IPPS processes requests for personnel action,
    training enrollments, and time and attendance information. IPPS interfaces with CPMIS and
    CUPS to receive time and attendance and payroll information. IPPS also interfaces with the IPPS
    Management and Reporting (MIR) system. MIR is a client/server system that provides reporting
    capability through an Oracle database.

TSA payroll, time and attendance, and HR moved to the ----------------------------------------- -----
-- -- ----------- ---------------------------------------- on August 22, 2005. For payroll, TSA will be using a
Kronos system called WebTA, a web-based system, which will interface with the------- system. The
HRMaxEmpower system will be TSA’s new HR system. The HRMaxEmpower system will also
interface with the ------ system.




         Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                               14
                                                                                          Appendix B

                            Department of Homeland Security
                        Information Technology Management Letter
                                   September 30, 2005




                                      Appendix B

FY2005 Notice of IT Findings and Recommendations - Detail by
                DHS Organizational Element




     Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                          15
                                                                                      Appendix B

                        Department of Homeland Security
                    Information Technology Management Letter
                               September 30, 2005




           Department of Homeland Security
            FY2005 Information Technology
Notification of Findings and Recommendations – Detail


         United States Citizenship and Immigration Services




 Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                      16
                                                                                                      Appendix B

                                        Department of Homeland Security
                                    Information Technology Management Letter
                                               September 30, 2005

                                  Department of Homeland Security
                                   FY2005 Information Technology
                       Notification of Findings and Recommendations – Detail

                                    Citizenship and Immigration Services

  IT NFRs Which Contributed to the Overall DHS Material Weakness for Financial System
                                       Security

                                                                                               Significant Findings
                                                                                               Contributing to the
                                                                                                  Overall DHS
NFR #            Condition                       Recommendation               New     Repeat
                                                                                               Material Weakness
                                                                              Issue    Issue
                                                                                                  for Financial
                                                                                                 System Security
                                          Allocate sufficient resources to
                                          ensure that the proper
                                          implementation policy
        The site Certification and
                                          requirements for all systems
        Accreditation (C&A)
                                          used to process, store, or
        package for the California
USCIS                                     transmit classified or sensitive
        Service Center, General                                                         X               X
05-02                                     information to be accredited
        Support System (GSS) -
                                          every three years. Also,
        Local Area Network (LAN)
                                          consider issuing interim
        is outdated and has expired.
                                          accreditations that represent the
                                          managers’ explicit acceptance
                                          of risks.
                                          Allocate sufficient resources to
                                          ensure that the proper
                                          implementation policy
                                          requirements for all systems
        The C&A package for the           used to process, store, or
USCIS   Texas Service Center              transmit classified or sensitive
                                                                               X                        X
05-03   (TSC) GSS-LAN is                  information to be accredited
        outdated and has expired.         every three years. Also,
                                          consider issuing interim
                                          accreditations that represent the
                                          managers’ explicit acceptance
                                          of risks.
        Access control weaknesses         Ensure that---- ------- -- system
        such as account                   passwords are established and
        management, password              maintained in accordance with
USCIS
        length, and a lack of review      DHS and Federal guidance and                  X               X
05-04
        over audit records were           that warning banners are in
        identified for the ------- - --   place when users logon to the
        system.                           system.




             Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                       17
                                                                                                  Appendix B

                                     Department of Homeland Security
                                 Information Technology Management Letter
                                            September 30, 2005

                                                                                           Significant Findings
                                                                                           Contributing to the
                                                                                              Overall DHS
NFR #           Condition                    Recommendation               New     Repeat
                                                                                           Material Weakness
                                                                          Issue    Issue
                                                                                              for Financial
                                                                                             System Security
        A Novell NetWare server at     Test and install vendor supplied
        USCIS’ Texas Service           patches in a timely manner and
USCIS   Center (TSC) was               undertake frequent vulnerability
                                                                           X                         X
05-05   identified as not having the   scanning of all systems at TSC
        correct vendor supplied        to verify that required patches
        patches installed.             have been installed.
        A vulnerability assessment     Ensure that the documented
        over -- -- -- - ---at USCIS    password policy is enforced on
        TSC noted that multiple        all systems and undertake
USCIS   local administrator            frequent vulnerability scanning
                                                                           X                         X
05-06   accounts had blank             on all systems at the TSC to
        passwords including            verify that passwords have been
        several accounts with          assigned and implemented
        supervisor level access.       correctly.




            Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                   18
                                                                                      Appendix B

                        Department of Homeland Security
                    Information Technology Management Letter
                               September 30, 2005




           Department of Homeland Security
            FY2005 Information Technology
Notification of Findings and Recommendations – Detail


         Immigration and Customs Enforcement




 Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                      19
                                                                                                     Appendix B

                                          Department of Homeland Security
                                      Information Technology Management Letter
                                                 September 30, 2005

                                     Department of Homeland Security
                                      FY2005 Information Technology
                          Notification of Findings and Recommendations – Detail

                                     Immigration and Customs Enforcement

               Management Comment: IT Notice of Findings and Recommendations

                                                                                                  Management
NFR #              Condition                       Recommendation              New     Repeat   Comment to DHS-
                                                                               Issue    Issue    CIO and CFO
          ICE does not have
                                            Document and implement
          procedures in place to
                                            policies and procedures for the
          periodically review --- -----
                                            periodic review of --- ---- user
ICE 05-   ------ ----- --- - ---- ----
                                            accounts, and ensure                         X              X
  07      ----------------- - user access
                                            administrative personnel
          lists and could not provide
                                            periodically perform reviews of
          a list of all authorized
                                            ------- user accounts.
          ------- users upon request.




               Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                        20
                                                                                      Appendix B

                        Department of Homeland Security
                    Information Technology Management Letter
                               September 30, 2005



           Department of Homeland Security
            FY2005 Information Technology
Notification of Findings and Recommendations – Detail


                     Customs and Border Protection




 Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                      21
                                                                                                              Appendix B

                                            Department of Homeland Security
                                        Information Technology Management Letter
                                                   September 30, 2005

                                      Department of Homeland Security
                                       FY2005 Information Technology
                           Notification of Findings and Recommendations – Detail

                                             Customs and Border Protection

        Significant IT NFRs Which Contributed to the Overall DHS Material Weakness for
                                  Financial System Security

                                                                                                      Significant Findings
                                                                                                      Contributing to the
                                                                                    New     Repeat       Overall DHS
NFR #               Condition                     Recommendation
                                                                                    Issue    Issue   Material Weakness for
                                                                                                       Financial System
                                                                                                            Security
                                             Remove unnecessary
          The Top Secret mainframe
                                             central security
          account administration on
                                             administrator- ------
          the---------------------- ------
                                             privileges and accounts or
          ------ -- --------- had several
CBP-IT-                                      alternatively continue
          weaknesses over                                                                     X               X
 05-02                                       implementation of a --- ---
          unauthorized access to
                                             ------ ----------- -- for use by
          accounts -------------- - --
                                             authorized individuals
          -- --- ---- and inactive
                                             during pre-determined
          accounts.
                                             circumstances.
                                             Develop enterprise-wide
                                             solutions for improving
                                             network and host-based
                                             system configuration
                                             design(s), consider the use
                                             of security management
                                             monitoring tools to prevent
                                             possible intrusions, proceed
          Improvements are needed            with the implementation of
          in system logical access           -- ------ ---- - - - - -- - --------
CBP-IT-
          controls over network              provide more robust system                       X               X
 05-09
          assets affecting                   management security
          - ------- -- ------- ------ ---    controls standards for
                                             Windows-based production
                                             servers, and consider the
                                             development of a
                                             compliance level policy for
                                             adherence to CBP
                                             password management
                                             policies at the - - -- ---
                                             -- - -- -------- --




                Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                             22
                                                                                                       Appendix B

                                           Department of Homeland Security
                                       Information Technology Management Letter
                                                  September 30, 2005

                                                                                               Significant Findings
                                                                                               Contributing to the
                                                                             New     Repeat       Overall DHS
NFR #              Condition                    Recommendation
                                                                             Issue    Issue   Material Weakness for
                                                                                                Financial System
                                                                                                     Security
                                           Perform a formal review of
                                           all personnel that have
          CBP management did not
                                           access to the --------- -----
          adequately implement
                                           ---- --- to determine those
          procedures for restricting
                                           that do not have a formal
          access to the data center
CBP-IT-                                    user access form in place,
          located in---------- and
05-14                                      establish a formal user            X                         X
          several terminated
                                           access form, and promptly
          employees did not have
                                           remove physical access
          their badges deactivated in
                                           rights to the -------- facility
          a timely manner.
                                           when an employee is
                                           terminated.
                                           Develop a formally
          Eighteen (18) -----              documented process for
CBP-IT-   ------ ---- -- were found with   granting normal and
                                                                              X                         X
 05-15    access to the production         emergency access for
          environment.                     ------ ---- -- to the - -- -
                                           production environment.
                                           Perform a formal analysis
          CBP has not configured
                                           of the company code
CBP-IT-   their version of---- -- to
                                           setting to determine if it
05-17     include a company code                                              X                         X
                                           should be set to
          setting of "productive."
                                           “productive”.
                                           Ensure that the assignment
                                           of sensitive functions and
                                           high-risk combinations of
                                           functions to non-
                                           supervisory users is based
          Excessive sensitive
                                           on a documented business
CBP-IT-   functions and high-risk
                                           need and approved by a                      X                X
 05-18    combinations have been
                                           supervisory official.
          assigned to ---- -- users.
                                           Exceptions from guidance
                                           provided by the
                                           memorandum should be
                                           formally approved and
                                           documented
                                           Delete the accounts of any
                                           confirmed terminated
                                           employees, and disable
CBP-IT-   Separated employees with
                                           user accounts of separated         X                         X
 05-19    active ------ accounts.
                                           employees and contractors
                                           as stated in CBP and
                                           Federal guidance.




               Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                         23
                                                                                                          Appendix B

                                           Department of Homeland Security
                                       Information Technology Management Letter
                                                  September 30, 2005

                                                                                                  Significant Findings
                                                                                                  Contributing to the
                                                                                New     Repeat       Overall DHS
NFR #               Condition                    Recommendation
                                                                                Issue    Issue   Material Weakness for
                                                                                                   Financial System
                                                                                                        Security
          Access to the --------- ---
                                            Recertify users with access
          -- -- --- -- ------ ---- --- --
CBP-IT-                                     -- ------- - - --- -----------and
          --- ----- --------- -related                                                    X               X
 05-28                                      document the evidence of
          dataset and-- - -- ---- -- ---
                                            the recertification.
          ---- is excessive.
                                            Recertify users with access
          The number of users with          to Top Secret Audit,
CBP-IT-   access to Top Secret Audit,       Recovery, and Backup
                                                                                          X               X
 05-30    Recovery, and Backup              datasets and document
          datasets is excessive.            evidence of the
                                            recertification.


        Remaining IT NFRs Which Contributed to the Overall DHS Material Weakness for
                                Financial System Security


                                                                                                  Remaining Findings
                                                                                                  Contributing to the
                                                                                New     Repeat       Overall DHS
NFR #               Condition                    Recommendation
                                                                                Issue    Issue   Material Weakness for
                                                                                                   Financial System
                                                                                                       Security
                                            Coordinate with each
                                            affected field office to
                                            either remove conflicting
                                            roles or sign a waiver to
          Numerous-- -- -- user IDs
CBP-IT-                                     accept responsibility for
          were identified as having                                                       X               X
 05-01                                      associated risks and
          segregation of duties issues.
                                            continue to prevent new
                                            IDs with segregation of
                                            duties conflict from being
                                            created.
          After the re-organization of
          the Office of Information
                                            Ensure that security
          Technology (OIT), security
CBP-IT-                                     administration functions
          administration functions at
05-03                                       remain independent of                X                        X
          the------- are not
                                            operations functions.
          independent of the
          operations function.




               Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                           24
                                                                                                            Appendix B

                                            Department of Homeland Security
                                        Information Technology Management Letter
                                                   September 30, 2005

                                                                                                    Remaining Findings
                                                                                                    Contributing to the
                                                                                  New     Repeat       Overall DHS
NFR #               Condition                       Recommendation
                                                                                  Issue    Issue   Material Weakness for
                                                                                                     Financial System
                                                                                                         Security
                                               Develop a process to
                                               ensure supervisory review
                                               of ---- - overrides and
                                               ensure that the new
          Certain controls can be              --- - -- - --- ---- ------------
CBP-IT-
          overridden in ---- -- without        --- -- -- --- --- - ---- - -                 X               X
 05-04
          supervisory approval.                system has the appropriate
                                               requirements for these
                                               controls and that the
                                               controls are applied prior to
                                               implementation.
                                               Formally establish a
                                               process for granting --- --
          CBP management has not               access to sensitive
          developed formal                     technical team roles that
CBP-IT-   procedures for granting              include procedures for
05-05     access to sensitive------            documenting authorization                    X               X
          Technical Team member                requests, identifying roles
          roles.                               to be granted, and
                                               recertification of user roles
                                               within ----- .
          The -------- --------- ---- --
                                               Update--- --------- - COOP
          ----------- continuity of
                                               with the most recent FY
          operations plan (COOP) is
                                               2004 test results and re-
          not updated to reflect the
                                               evaluate the COOP for
CBP-IT-   results of FY 2004 testing,
                                               overall contingency
05-06     and the upgrade of their                                                 X                        X
                                               planning procedures on an
          financial system from--------
                                               annual basis and in the
          -- -- --- -- ------ - --------- --
                                               event of a major system
          --- ----- ------- - - mainframe
                                               change or upgrade.
          to ------
          CBP management has not
          consistently applied the             Consistently apply the
CBP-IT-   requirement for initial              requirements for initial and
05-08     security awareness training          refresher security                  X                        X
          for CBP employees and                awareness training,
          contractors.
                                               Continue to review the
          ------ security audit log
CBP-IT-                                        audit logs daily, maintain
          reviews not evidenced for
05-10                                          documented evidence, and            X                        X
          the majority of FY 2005.
                                               train backup personnel.




                Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                              25
                                                                                                            Appendix B

                                             Department of Homeland Security
                                         Information Technology Management Letter
                                                    September 30, 2005

                                                                                                    Remaining Findings
                                                                                                    Contributing to the
                                                                                  New     Repeat       Overall DHS
NFR #               Condition                       Recommendation
                                                                                  Issue    Issue   Material Weakness for
                                                                                                     Financial System
                                                                                                         Security
                                               Complete efforts to identify
          CBP ----- Administrator               - ------ - - --- -- -- -- --
          staff have not documented            connections that are
CBP-IT-   Interconnection Security             considered “legacy”
05-11     Agreements (ISA) for all             connections as well as                       X               X
          entities that connect with           connections with ----- and
          ------                               formally establish ISAs
                                               with these entities.
                                               Formally update the
                                               alternate processing site
          CBP alternate processing
                                               agreement to accurately
          site agreement not
CBP-IT-                                        reflect the current hardware
          finalized. Priority of
05-12                                          and support that will be            X                        X
          service provision not in
                                               required of the alternate
          place.
                                               processing site vendor in
                                               the event of an emergency.
                                               Formalize the process to
          No formal process to                 confirm or enforce
          confirm or enforce                   compliance with the ---- --
CBP-IT-
          compliance with the ---- --          recertification process at
05-13                                                                              X                        X
          ----------------- ----------------   the field sites and
          ----- -------                        document all
                                               recertifications.
                                               Develop a process to
                                               identify the workstations
                                               that have yet to install the
          The incident handling and            ---- - ----- -- , continue to
          response capability needs            test and implement a
CBP-IT-   improvement regarding                standard real-time
05-16     incident detection and               automated reporting                          X               X
          initiation, response,                process, and develop a
          recovery, and reporting.             consistent process to
                                               respond to system flaw
                                               notifications and track
                                               reported security incidents.
                                               Formally document test
          CBP does not document
                                               plans, test cases, and test
          changes to the ----- system
CBP-IT-                                        results for all - -- -- changes,
          including test plans, test
05-20                                          and business and customer           X                        X
          cases, impact analysis, and
                                               impact analysis for ------
          test results.
                                               changes requests.




                Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                              26
                                                                                                     Appendix B

                                           Department of Homeland Security
                                       Information Technology Management Letter
                                                  September 30, 2005

                                                                                             Remaining Findings
                                                                                             Contributing to the
                                                                           New     Repeat       Overall DHS
NFR #               Condition                  Recommendation
                                                                           Issue    Issue   Material Weakness for
                                                                                              Financial System
                                                                                                  Security
                                           Perform a formally
                                           documented assessment of
          CBP management has not           the tables that should be
CBP-IT-
          activated logging for            logged by ------ and
05-21                                                                       X                           X
          critical tables within ----- .   complete the
                                           implementation of table
                                           logging within ------
          CBP management has not
          completed a Certification
                                           Complete a security control
          and Accreditation package
                                           assessment for all -------
CBP-IT-   for all components of the
                                           LAN components and a
05-22     ------ LAN, including no                                          X                           X
                                           risk assessment for all
          security control assessment
                                           ------ LAN components.
          and no formal risk
          assessment conducted.
                                           Consider reviewing the
                                           sensitivity of applications
                                           and based upon results,
                                           perform separate C&As
                                           where appropriate.
          Lack of evaluation of the        Consider establishing a
          need for a separate C&As         relationship of identified
          for applications included in     risks to defined security
CBP-IT-
          the Administrative               requirements in ------
05-23                                                                                X                  X
          Applications C&A, and the        incorporate a risk-based
          improvements needed in           approach for any re-
          risk assessment guidance.        certification efforts
                                           performed, and consider
                                           development of definitive
                                           guidance for risk
                                           assessment and security
                                           plan criteria
                                           Develop a formal
                                           centralized process for
                                           tracking the termination of
          CBP does not maintain a          contract personnel,
CBP-IT-   centralized listing of           immediately deactivating
05-24     separated contract               systems access of                X                           X
          personnel.                       terminated contractors, and
                                           periodically assessment of
                                           contractor access to CBP
                                           systems.
                                           Change the setting ------- --
          ----- idle session lock          ----------- - ------ to
CBP-IT-
          inconsistent with CBP            disconnect idle sessions
05-25                                                                       X                           X
          policy.                          after 20 minutes of
                                           inactivity.
               Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                        27
                                                                                                          Appendix B

                                           Department of Homeland Security
                                       Information Technology Management Letter
                                                  September 30, 2005

                                                                                                  Remaining Findings
                                                                                                  Contributing to the
                                                                                New     Repeat       Overall DHS
NFR #               Condition                   Recommendation
                                                                                Issue    Issue   Material Weakness for
                                                                                                   Financial System
                                                                                                       Security
                                           Continue to review and
                                           deactivate inactive
          No procedures to detect and      accounts on a monthly
CBP-IT-
          deactivate inactive -----        basis and implement an
05-26                                                                            X                        X
          users.                           automated mechanism to
                                           detect and deactivate
                                           inactive accounts
          Virtual Private Network          Continue to use the official
          (VPN) access                     authorization form for new
CBP-IT-   authorizations not               VPN users and formally
05-27     documented and VPN               recertify all VPN employee            X                        X
          accounts are not                 accounts on a periodic
          periodically recertified.        basis and document results.
                                           Document that access to
          CBP management did not           the --- -- - - - ------- --- - ---
          provide information as to         - -- -- (or equivalent) are
CBP-IT-
          whether --- -- ---- ------- --   properly segregated and
05-29                                                                                     X               X
          ---- - - - -- -- are             perform a review of current
          appropriately segregated.        granted accesses for
                                           appropriateness.
                                           Develop a formal process
          Weaknesses in the C&A            to ensure that all non-
CBP-IT-   process at field sites           recommend field sites
05-31     including several missing        submit a NIST 800-26                           X               X
          site assessments.                LAN self-assessment in a
                                           timely manner.




               Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                           28
                                                                                      Appendix B

                        Department of Homeland Security
                    Information Technology Management Letter
                               September 30, 2005




           Department of Homeland Security
            FY2005 Information Technology
Notification of Findings and Recommendations – Detail


                         United States Coast Guard




 Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                      29
                                                                                                    Appendix B

                                           Department of Homeland Security
                                       Information Technology Management Letter
                                                  September 30, 2005

                                      Department of Homeland Security
                                       FY2005 Information Technology
                           Notification of Findings and Recommendations - Detail
                                          United States Coast Guard

        Significant IT NFRs Which Contributed to the Overall DHS Material Weakness for
                                  Financial System Security

                                                                                           Significant Findings
                                                                                           Contributing to the
                                                                         New     Repeat       Overall DHS
NFR #              Condition                   Recommendation
                                                                         Issue    Issue   Material Weakness for
                                                                                            Financial System
                                                                                                 Security
                                          Complete the BRP as
                                          planned, store a finalized
          The ----- ----------------
                                          copy off-site, train
CG-IT-    ---- -- - ----- - has not
                                          personnel in their assigned              X                    X
05-001    completed a Business
                                          roles and responsibilities,
          Recovery Plan (BRP).
                                          test the BRP and document
                                          lessons learned.
                                          Establish a testing detail
                                          baseline that defines the
                                          standard components that a
          ----- has not completed a       developer should document
          testing baseline and users      in Profession Version
CG-IT-
          were able to change their       Control Software (PVCS)                  X                    X
05-002
          privileges to gain access to    Tracker, and enforce the
          production.                     procedure to implement
                                          testing as a component of
                                          change implementation.

          Access control weaknesses
          exist in the------              Document and implement
          ------ ----- ----- - - - ----   RACF account
          ----------- - - -- ----------   management policies and
CG-IT-    ------- - - including user      procedures, perform
                                                                                   X                    X
05-003    account creation and            periodic reviews of ---- ---
          termination procedures are      accounts, and routinely
          not documented, and a           monitor audit logs for
          recertification of accounts     unusual activity.
          does not take place.




               Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                         30
                                                                                                           Appendix B

                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2005

                                                                                                    Significant Findings
                                                                                                    Contributing to the
                                                                                  New     Repeat       Overall DHS
NFR #               Condition                         Recommendation
                                                                                  Issue    Issue   Material Weakness for
                                                                                                     Financial System
                                                                                                          Security
         Coast Guard has not                      Complete the restoration of
         completed the process of                 background investigation
         filing the personal records              records not included during
         that were recovered and                  the migration of records
         recreating the records that              from the Department of
         were not found during the                Transportation to DHS.
CG-IT-   migration of records from                Work with DHS to finalize
                                                                                            X               X
05-006   the Department of                        policy for conducting
         Transportation to DHS.                   contractor background
         Comprehensive policies                   investigations and
         for conducting background                document Coast Guard-
         investigations for                       specific procedures
         contractors have not been                compliant with new DHS
         finalized.                               requirements.
         The --------------- system               Replace ----------with the
         does not require strong                  Coast Guard Direct Access
CG-IT-
         passwords and WANG is                    HRMS 8.9 upgrade, which                   X               X
05-008
         still being operated                     will address vendor support
         without vendor support.                  and password strength.
         Service continuity
         weaknesses for the
         -- --------- - -- - ---- ----- - --- ,   Periodically reassess and,
         ----- , and ----- , including            as appropriate, revise the
         outdated Business                        -------- -- BCCP, develop
         Continuity Contingency                   disaster recovery
CG-IT-
         Plan (BCCP), lack of                     procedures for ---- - and                 X               X
05-009
         disaster recovery                        ----- , complete the
         procedure details, an off-               relocation of the off-site
         site storage location in                 storage location, and
         close proximity to the data              periodically test the BCCP.
         center, and lack of BCCP
         testing exist.
         -------- -- Unix change
         control process supporting
                                                  Develop and enforce
         ----- and --- -- have
                                                  configuration management
         weaknesses including:
                                                  procedures for developing
         procedures in support of
                                                  test plans, documenting test
         the finalized CM policy
CG-IT-                                            results, implementing
         are not developed,                                                                 X               X
05-010                                            software, management
         documentation supporting
                                                  approval of system
         risk assessments is not
                                                  changes, and retention of all
         maintained, formal change
                                                  risk assessments and testing
         requests are not used, and
                                                  documentation.
         test plans and test results
         are not documented.



                Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                                31
                                                                                                           Appendix B

                                             Department of Homeland Security
                                         Information Technology Management Letter
                                                    September 30, 2005

                                                                                                    Significant Findings
                                                                                                    Contributing to the
                                                                                  New     Repeat       Overall DHS
NFR #              Condition                       Recommendation
                                                                                  Issue    Issue   Material Weakness for
                                                                                                     Financial System
                                                                                                          Security
         ------ - -- does not have
                                              Develop formal entity wide
         documented procedures
                                              procedures for granting,
         for controlling the
                                              monitoring, and terminating
CG IT    processes associated with
                                              ----- user accounts and the                   X               X
05-011   the granting, monitoring,
                                              periodic revalidation of
         and termination of user
                                              ----- user profiles by local
         accounts within FPD have
                                              security administrators.
         not been documented.
         -------- -- has not
         developed documented
         policies and procedures to           Develop policies and
         restrict access to the UNIX          procedures for restricting
         operating system and for             and monitoring access to
CG-IT-   monitoring access, and               the UNIX operating system
                                                                                            X               X
05-012   periodic reviews are not             for ---- - and - - -- and
         performed to determine if            perform periodic reviews to
         monitoring of the UNIX               ensure the effectiveness of
         operating system for---- -           the monitoring process.
         and ----- is functioning as
         intended.
         ------------- Certification
         and Accreditations (C&A)
                                              Update and complete the
         for - - -- ----- -- --- -- --- ---
                                              C&A process for -----
         were not complete.
CG-IT-                                        -------- - -- -------- to include
         Specifically, security                                                             X               X
05-013                                        the completion of ST&Es
         testing and evaluations
                                              and the update of security
         (ST&E) were incomplete
                                              plans.
         and security plans had not
         been updated.
         -------- -- has not
         implemented formal                   Develop procedures for the
         procedures for the periodic          regular and periodic
         management review and                monitoring of high-level
CG-IT-
         monitoring activities of             ---- - database administrator        X                        X
05-015
         ---- - database                      and system administrator
         administrators and system            activities, and the Oracle
         administrators, or the               SYS account.
         Oracle SYS accounts.




               Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                               32
                                                                                                        Appendix B

                                           Department of Homeland Security
                                       Information Technology Management Letter
                                                  September 30, 2005

                                                                                                 Significant Findings
                                                                                                 Contributing to the
                                                                               New     Repeat       Overall DHS
NFR #             Condition                      Recommendation
                                                                               Issue    Issue   Material Weakness for
                                                                                                  Financial System
                                                                                                       Security
                                            Implement the individual
                                            fixes noted in the NFR for
         AppDetective identified            vulnerabilities identified
         vulnerabilities on the -----       and institute a formal
CG-IT-   database including weak            process for performing
                                                                                         X               X
05-016   passwords, excessive               periodic scans of the
         access permissions and             ------ - -- network
         missing patches.                   environment, including the
                                            financial processing
                                            environment.
                                            Implement the individual
                                            fixes noted in the NFR for
                                            vulnerabilities identified
         The Enterprise Security
                                            and institute a formal
         Management (ESM) tool
CG-IT-                                      process for performing
         identified configuration                                                        X               X
05-017                                      periodic scans of the
         and account management
                                            ------ - -- network
         weaknesses on --- --
                                            environment, including the
                                            financial processing
                                            environment.
                                            ------ - -- management
         Internet Security Systems
                                            implemented immediate
CG-IT-   Internet Scanner identified
                                            corrective action by                X                        X
05-018   three hosts that were
                                            removing the BrightStor
         missing patches.
                                            agent from the three hosts.
                                            Implement a system change
                                            request to automatically
         Undelivered Orders –               reestablish funds as
         Transaction Codes: A               obligated ------- -------------
         report allowing users to           ----- ---- -- - - ----- - -- are
CG-IT-
         review and manually re-            used, provide training to                    X               X
05-021
         establish obligations was          users, and require users to
         not implemented as well as         conduct reviews to
         the manual review process.         determine when re-
                                            obligation to the associated
                                            UDO balances are required.
         Disaster recovery plans for
         the Operations Service
                                            Complete disaster recovery
         Center (OSC) Gold
                                            planning for the-----------
         Business Systems, which
CG-IT-                                      ------- - Gold Business
         include the ----------- ------                                                  X               X
05-022                                      Systems and periodically
         -------- ------ ) and --- ---
                                            test disaster recovery and
         ---- -- --- - ----- ------
                                            contingency plans.
         --------- --------- ------------
         have not been completed.



               Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                            33
                                                                                                   Appendix B

                                         Department of Homeland Security
                                     Information Technology Management Letter
                                                September 30, 2005

                                                                                          Significant Findings
                                                                                          Contributing to the
                                                                       New     Repeat        Overall DHS
NFR #             Condition                  Recommendation
                                                                       Issue    Issue    Material Weakness for
                                                                                           Financial System
                                                                                                Security
         ----- has not completed a       Fully implement planned
         security plan for CMPlus        corrective actions to
CG-IT-
         5.                              complete the security plan              X                     X
05-023
                                         for CMPlus during the
                                         system’s C&A process.
         ESM identified high and
         medium level
                                         Implement the individual
         vulnerabilities on the
                                         fixes noted in the NFR for
         ------- -- production
                                         vulnerabilities identified
CG-IT-   database over account
                                         and institute a formal                  X                     X
05-024   management,
                                         process for performing
         configuration
                                         periodic scans of the -----
         management, password
                                         network environment.
         management, and patch
         management.
         AppDetective found
         vulnerabilities on the          Implement the individual
         ------- - production            fixes noted in the NFR for
         database over audit             vulnerabilities identified
CG-IT-
         management,                     and institute a formal                  X                     X
05-025
         configuration                   process for performing
         management, password            periodic scans of the -----
         management, and patch           network environment.
         management.
                                         Complete planned
                                         corrective actions for the
         ------ has initiated required   redesign of CMPlus/FLS
         changes on the application      data interfaces to include
         code on the server side.        functionality to
CG-IT-
         However the required            communicate data interface              X                     X
05-026
         update to the user              errors back to the CMPlus
         workstations has not been       unit/user by deploying the
         completed.                      patch to implement the
                                         required fix to users on
                                         client workstations.




              Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                       34
                                                                                                     Appendix B

                                         Department of Homeland Security
                                     Information Technology Management Letter
                                                September 30, 2005

                                                                                            Significant Findings
                                                                                            Contributing to the
                                                                         New     Repeat        Overall DHS
NFR #              Condition                   Recommendation
                                                                         Issue    Issue    Material Weakness for
                                                                                             Financial System
                                                                                                  Security
                                           Implement and enforce
                                           procedures for obtaining
                                           system security information
           Implementation and
                                           from ISSOs. Coast Guard
           management oversight of
                                           management should ensure
           Coast Guard’s information
                                           the implementation of
           security program remains
                                           corrective actions to
           fragmented including
                                           improve system security
           communication and
CG IT-                                     policies and procedures
           enforcement of procedures                                               X                     X
05-027                                     regarding the C&A process,
           for security information
                                           patch management, account
           with the ISSOs, enforce
                                           management, monitoring of
           strong passwords and keep
                                           system software, and
           system security policies
                                           contingency planning.
           and procedures and C&A
                                           Also, implement a
           packages.
                                           background investigation
                                           process for CG contractors
                                           and hire needed personnel.


         Remaining IT NFRs Which Contributed to the Overall DHS Material Weakness for
                                 Financial System Security

                                                                                            Remaining Findings
                                                                                            Contributing to the
                                                                         New     Repeat        Overall DHS
NFR #               Condition                   Recommendation
                                                                         Issue    Issue    Material Weakness for
                                                                                             Financial System
                                                                                                 Security
           User account maintenance        Document and implement
           procedures for ----- civilian   account maintenance
           personnel were not              policies and procedures
CG-IT-     documented and access lists     policies, perform periodic
05-004     were not reviewed               account reviews, and                    X                     X
           periodically and audit trails   regularly monitor Direct
           are not reviewed on a           Access audit trails.
           regular basis.
           The------ General Support       Complete the C&A
CG-IT-     System (GSS) Certification      package for the GSS in
05-005     and Accreditation (C&A)         compliance with DHS and                 X                     X
           not completed.                  Federal guidance.




                Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                        35
                                                                                                   Appendix B

                                        Department of Homeland Security
                                    Information Technology Management Letter
                                               September 30, 2005

                                                                                          Remaining Findings
                                                                                          Contributing to the
                                                                       New     Repeat        Overall DHS
NFR #             Condition                 Recommendation
                                                                       Issue    Issue    Material Weakness for
                                                                                           Financial System
                                                                                               Security
                                        Retain, as evidence,
         Results of reviews over
                                        documentation of regular
         ------ user access were not
                                        reviews performed of the
CG-IT-   available and
                                        Windows 2000 CG ------
05-014   documentation of periodic                                               X                     X
                                        directory to ensure that the
         reviews was not on file at
                                        list of users and
         -------- --
                                        permissions is accurate.
                                        Develop and implement
         Formal procedures              formal data center access
         regarding access to the        procedures and a
CG-IT-
         ------ - -- data center have   formalized method to track
05-019                                                                  X                              X
         not been established and       information system-related
         implemented.                   items entering and exiting
                                        the facility.




              Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                     36
                                                                                      Appendix B

                        Department of Homeland Security
                    Information Technology Management Letter
                               September 30, 2005



           Department of Homeland Security
            FY2005 Information Technology
Notification of Findings and Recommendations - Detail


             Federal Emergency Management Agency




 Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                      37
                                                                                                          Appendix B

                                         Department of Homeland Security
                                     Information Technology Management Letter
                                                September 30, 2005

                                     Department of Homeland Security
                                      FY2005 Information Technology
                          Notification of Findings and Recommendations - Detail

                             Federal Emergency Management Agency (FEMA)

         Significant IT NFRs Which Contributed to the Overall DHS Material Weakness for
                                   Financial System Security

                                                                                                  Significant Findings
                                                                                                   Contributing to the
                                                                                 New     Repeat       Overall DHS
NFR #              Condition                    Recommendation
                                                                                 Issue    Issue    Material Weakness
                                                                                                  for Financial System
                                                                                                        Security
                                         Complete the C&A
          Three systems do not have      accreditation packages for
          a Certification and            FEMA.gov and----- -
          Accreditation (C&A).           adequately document the
          Also, the ----- -- security    results of the--------- ST&E,
 EPR-     test and evaluation (ST&E)     complete documentation for
IT-05-    did not provide adequate       the ST&Es performed on                            X               X
  05      documentation of results,      ------------- -- ------- ------- ----
          and six systems with           ------ -- and -- - - ---- -- -- and
          completed C&As did not         re-perform the C&A process
          include ST&E                   for ------ -- due to the major
          documentation.                 changes the system has
                                         undergone.
          The ----- -- Contingency
                                         Perform a full test of the
          Plan needs to adequately
                                         -- --- - Contingency Plan
          test the IT components of
                                         when the ----- ----- ------------
          the system/process and the
                                         --- -- -- is prepared to be the
 EPR-     ------ -- Contingency Plan
                                         functional alternate site for
IT-05-    needs to be completed to                                                         X               X
                                         Mt. Weather and update the
  08      take into account the new
                                         ------ -- Contingency Plan
          Linux Operating system
                                         once the ------ --- migration is
          and Small Business
                                         complete. Conduct annual
          Administration web
                                         contingency plan testing.
          interface.
                                         Update the FEMA continuity
          FEMA has not prioritized
                                         of operations plan to
          its critical data and
                                         incorporate clearly the order
          operations, emergency
                                         of the 12 critical IT systems
 EPR-     processing priorities and
                                         that would be brought back
IT-05-    procedures have not been                                                         X               X
                                         online at the -------- -------
  09      documented, and all
                                         -------------- alternate
          resources supporting
                                         processing site in the event of
          critical operations have not
                                         a disaster associated with ----
          been identified.
                                         --------- -



                Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                          38
                                                                                                      Appendix B

                                          Department of Homeland Security
                                      Information Technology Management Letter
                                                 September 30, 2005

                                                                                              Significant Findings
                                                                                               Contributing to the
                                                                             New     Repeat       Overall DHS
NFR #             Condition                     Recommendation
                                                                             Issue    Issue    Material Weakness
                                                                                              for Financial System
                                                                                                    Security
         ESM identified high and
         medium level
                                          Implement the individual fixes
         vulnerabilities on -----
                                          listed in the NFR for the
 EPR-    -- ----- --- that supports the
                                          vulnerabilities identified and
IT-05-   -------- application                                                          X                X
                                          undertake an annual
  10     including: account
                                          vulnerability assessment as
         management, configuration
                                          prescribed in DHS guidance.
         management and patch
         management.
                                          Implement the DHS password
                                          policy on all databases and
 EPR-    Two Oracle databases were        consider the implementation
IT-05-   identified with weak/default     of an automated password                     X                X
  11     passwords.                       checking tool to help ensure
                                          that a strong password policy
                                          has been implemented
         Internet Scanner identified      Implement the individual fixes
         high risk vulnerabilities on     listed in the NFR for the
 EPR-
         6 hosts in the following         vulnerabilities identified and
IT-05-                                                                                 X                X
         areas: configuration             undertake an annual
  12
         management, and password         vulnerability assessment as
         management.                      prescribed in DHS guidance.
         AppDetective identified
         high risk vulnerabilities in     Implement the individual fixes
         the following areas on the       listed in the NFR for the
 EPR-
         -------- database: account       vulnerabilities identified and
IT-05-                                                                        X                         X
         management, configuration        undertake an annual
  13
         management, password             vulnerability assessment as
         management, and patch            prescribed in DHS guidance.
         management.
                                          Develop and implement a
                                          solution to limit excessive
                                          access to the -------- account
                                          mapping function, reevaluate
 EPR-    Access to the Account            and limit access rights to those
IT-05-   Mapping Tables in ----- --       with a business need to access      X                         X
  14     is excessive.                    the -- -- -- account mapping
                                          functions, and routinely
                                          monitor the account mapping
                                          functions and related changes
                                          made.




               Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                        39
                                                                                                                Appendix B

                                             Department of Homeland Security
                                         Information Technology Management Letter
                                                    September 30, 2005

        Remaining IT NFRs Which Contributed to the Overall DHS Material Weakness for
                                Financial System Security

                                                                                                        Remaining Findings
                                                                                                        Contributing to the
                                                                                      New     Repeat       Overall DHS
NFR #               Condition                        Recommendation
                                                                                      Issue    Issue   Material Weakness for
                                                                                                         Financial System
                                                                                                             Security
          Policies and procedures do
          not exist to perform
                                                Develop and implement
          periodic review of
EPR-IT-                                         procedures regarding
          --- - ---- -- --- -- --- -
05-01                                           periodic review of access                       X               X
          -- - --------- -- - - -- --- -- ---
                                                lists.
          ------ -- ---------- user access
          lists.
          ---- ----- ---- ---------
          -- - --------- -- - - -- --- -- ---
          ------ -- ------------ access         Disable users’ ability to
          controls suspend a user’s             change the inactivity
          session after fifteen minutes         threshold or disable the
          of inactivity. However, the           password protected
EPR-IT-
          option is not deactivated so          screensaver and ensure that
05-02                                                                                           X               X
          users have the ability to             -- - --- - users are locked
          deactivate the screensaver.           out of the system after
          Furthermore, users are not            three invalid logon
          locked out after three                attempts.
          unsuccessful logon
          attempts.
                                                Transfer all critical
                                                equipment out of the room
                                                in --- --- - ------ to an
                                                alternate secure site with
                                                capabilities to house IT
          The ----------- ---------
                                                equipment on raised floors
          ---- ---- had multiple
                                                and upon implementation
EPR-IT-   weaknesses including lack
                                                of the --- --- - --------------
05-03     of raised floors, and IFMIS                                                           X               X
                                                ---------- “real-time” back-
          production and test servers
                                                up facility, create
          in close proximity.
                                                redundant servers at the
                                                ----- ----- ----- ---- - -- - -- --
                                                for the two -- -- -- servers
                                                located at the ------- ------ -
                                                ---- --------- ---- ------- - -- --




                Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                                 40
                                                                                                    Appendix B

                                       Department of Homeland Security
                                   Information Technology Management Letter
                                              September 30, 2005

                                                                                           Remaining Findings
                                                                                           Contributing to the
                                                                         New     Repeat       Overall DHS
NFR #             Condition                  Recommendation
                                                                         Issue    Issue   Material Weakness for
                                                                                            Financial System
                                                                                                Security
                                         Ensure that FEMA
                                         Instruction 1540.3 is
          The employee termination
                                         finalized, signed by the
          process for removing
                                         Under Secretary,
          system access policies or
                                         promulgated to all EP&R
          processes for ensuring that
                                         employees, and enforced
EPR-IT-   all general support system
                                         and per the instruction
05-04     and application access,                                                  X                    X
                                         perform a review of
          including -- - -- -- , is
                                         authorized accounts on a
          removed in a timely manner
                                         semi-annual basis and
          for the separated employees
                                         remove terminated
          is in draft form.
                                         employees’ access to all
                                         systems.
                                         Complete the
          Password protected
                                         implementation of ------ --
          screensaver properties are
                                         ----------- and disable the
EPR-IT-   not disabled. Therefore, the
                                         user’s ability to change the
05-06     current method of                                                        X                    X
                                         inactivity threshold or
          distributing of -- --- --
                                         disable the password
          passwords is not sufficient.
                                         protected screensaver.
                                         Enhance system
                                         documentation supporting
          Insufficient documentation     the description of the
          exists to fully explain        -------- user functions, with
EPR-IT-   ----- -- functions and user    their associated system
05-07     access capabilities            capabilities and develop                  X                    X
          associated with those          and implement procedures
          functions.                     to update the
                                         documentation as functions
                                         are added or modified.




               Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                      41
                                                                                      Appendix B

                        Department of Homeland Security
                    Information Technology Management Letter
                               September 30, 2005




           Department of Homeland Security
            FY2005 Information Technology
Notification of Findings and Recommendations – Detail


                                    Consolidated




 Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                      42
                                                                                                      Appendix B

                                            Department of Homeland Security
                                        Information Technology Management Letter
                                                   September 30, 2005

                                      Department of Homeland Security
                                       FY2005 Information Technology
                           Notification of Findings and Recommendations – Detail

                                                       Consolidated

         Significant IT NFRs Which Contributed to the Overall DHS Material Weakness for
                                   Financial System Security

                                                                                            Significant Findings
                                                                                            Contributing to the
                                                                        New     Repeat         Overall DHS
NFR #             Condition                  Recommendation
                                                                        Issue    Issue     Material Weakness for
                                                                                             Financial System
                                                                                                  Security
                                        Ensure that - ---- user
           DHS administrators do        access is only granted upon
           not consistently require     completion of the TIER new
CONS-      new users to complete        user access request form and
IT-05-     the ------ new user          evidence of supervisory          X                            X
  02       access form before           authorization. In addition,
           granting access to           the access request forms
           ------ .                     should be retained for at
                                        least one year.
           No policies and
           procedures are in place      Develop and implement
           to periodically review       policies and procedures for
           ------- user access lists    the periodic review of ------
           to determine if access is    access lists and develop and
CONS-
           still needed and a           implement policies and
IT-05-                                                                   X                            X
           documented process has       procedures to promptly
  03
           not been established to      notify the -- ----
           notify--------               administrators of the
           administrators of            termination or transfer of
           terminated or                personnel with access.
           transferred personnel.
                                        Develop and implement a
           Informal processes are       detailed SDLC or
           followed for making          configuration management
           changes to ------ --------   procedures for performing
CONS-
           and -------- ----- does      changes over ----------
IT-05-                                                                   X                            X
           not have a version           -- ----- template process and
  04
           manager tool for             implement a version
           template changes made        manager tool in order to
           to the application.          maintain previous versions
                                        of-- - -- --- --- - reports.




                 Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                          43
                                                                                                   Appendix B

                                        Department of Homeland Security
                                    Information Technology Management Letter
                                               September 30, 2005

                                                                                         Significant Findings
                                                                                         Contributing to the
                                                                   New       Repeat         Overall DHS
NFR #          Condition                 Recommendation
                                                                   Issue      Issue     Material Weakness for
                                                                                          Financial System
                                                                                               Security
         ------ configuration
         management controls
                                    Improve configuration
         can be improved
                                    management controls,
         including lead
                                    ensure adherence with the
         developers that have
                                    Department of Treasury
         access to production,
                                    SCM and ASSC SDLC
         segregation of duties
CONS-                               Workflow and Processes
         issues exist for system
IT-05-                              Handbook throughout DHS         X                              X
         changes made outside
  05                                as they relate to opening an
         of the schedule ------
                                    SCR, and maintain test
         quarterly releases, all
                                    documentation for changes
         system change requests
                                    implemented outside of the
         (SCR) are not
                                    scheduled - -- -- quarterly
         documented, and test
                                    releases.
         documentation is not
         maintained.
                                    Implement recommended
         Discrepancies exist        actions in order to make the
         between the DHS            analytic report code,
CONS-
         Performance and            equations, and PAR guide
IT-05-                                                              X                              X
         Accountability Report      consistent and develop and
  06
         (PAR) Guidance and         implement a configuration
         the Analytical Report.     management process over
                                    analytic report changes.
         Discrepancies Exist
                                    Implement changes to the
         Between the United
                                    DHS SGL normal balance
         States Standard General
                                    accounts for compliance
         Ledger (USSGL) and
CONS-                               with the USSGL and
         the DHS Standard
IT-05-                              develop a procedure to          X                              X
         General Ledger (DHS
  07                                verify the abnormal balance
         SGL) account
                                    report logic after any
         classifications used to
                                    changes in the DHS SGL or
         populate the Abnormal
                                    USSGL.
         Balances Report.
         No documented
         procedures are in place
         for DHS components to
                                    Document and implement
         perform a formal
                                    procedures for DHS
CONS-    review, by a separate
                                    components to perform a
IT-05-   approving individual, of                                   X                              X
                                    formal review of financial
  08     financial data before
                                    data before moving it into
         moving the - ---- file
                                    the ------ Repository.
         from the Holding Area
         into the -------
         Repository.



              Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                     44
                                                                                                           Appendix B

                                           Department of Homeland Security
                                       Information Technology Management Letter
                                                  September 30, 2005

                                                                                                   Significant Findings
                                                                                                   Contributing to the
                                                                              New       Repeat        Overall DHS
NFR #             Condition                     Recommendation
                                                                              Issue      Issue    Material Weakness for
                                                                                                    Financial System
                                                                                                         Security
                                           The DHS Chief Information
           Lack of compliance
                                           Officer (CIO), in
           with FISMA in the
                                           coordination with the DHS
           areas of access controls,
                                           Office of the Chief Financial
           entity-wide security
                                           Officer (OCFO) and other
           program planning and
CONS-                                      DHS functional leaders
           management,
IT-05-                                     should ensure further                          X                X
           application software
  09                                       emphasis on the monitoring
           development and
                                           and enforcement of policies
           change control, system
                                           and procedures through the
           software, segregation of
                                           performance of periodic
           duties, and service
                                           security control assessments
           continuity.
                                           and audits.


         Remaining IT NFRs Which Contributed to the Overall DHS Material Weakness for
                                 Financial System Security

                                                                                                   Remaining Findings
                                                                                                   Contributing to the
                                                                                New      Repeat       Overall DHS
NFR #               Condition                      Recommendation
                                                                                Issue     Issue   Material Weakness for
                                                                                                    Financial System
                                                                                                        Security
                                               Reevaluate ------ privileges
                                               assigned to Department of
           Treasury personnel access
CONS-                                          Treasury users, and restrict
           to DHS- - ---- ----
IT-05-                                         user account permissions to
           -- -- --- -------------------
01                                             only the minimum                               X             X
           ---- - - ---- - ---------
                                               privileges necessary to
           continues to be excessive.
                                               achieve the principle of
                                               least privilege.




                Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                            45
                                                                                      Appendix B

                        Department of Homeland Security
                    Information Technology Management Letter
                               September 30, 2005




           Department of Homeland Security
            FY2005 Information Technology
Notification of Findings and Recommendations - Detail


 Office of State and Local Government Coordination and
                 Preparedness (SLGCP)




 Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                      46
                                                                                                            Appendix B

                                             Department of Homeland Security
                                         Information Technology Management Letter
                                                    September 30, 2005

                                       Department of Homeland Security
                                        FY2005 Information Technology
                            Notification of Findings and Recommendations – Detail

                State and Local Government Coordination and Preparedness (SLGCP)

          Significant IT NFRs Which Contributed to the Overall DHS Material Weakness for
                                    Financial System Security

                                                                                                    Significant Findings
                                                                                                    Contributing to the
                                                                                  New     Repeat       Overall DHS
NFR #              Condition                   Recommendation
                                                                                  Issue    Issue   Material Weakness for
                                                                                                     Financial System
                                                                                                          Security
                                         Implement a Memorandum
                                         of Understanding (MOU)
            IT control environment of    agreement to include the
            the Department of Justice    minimum-security related
            Office of Justice
                                         responsibilities and continue
SLGCP-      Programs (OJP) needs
2005-06     strengthening over access
                                         to work with OJP to ensure                X                        X
            controls, change controls,   all weaknesses that impact
            service continuity, and      SLGCP’s reliance on the
            system software.             OJP IT control environment
                                         are mitigated and corrected.

                                         Continue to finalize the
            Segregation of duties is     policies and procedures that
            not properly enforced.       address segregation of
            The SLGCP has not            duties for SLGCP
            formed a separate
                                         information systems
SLGCP-      Information Systems
            department and has yet to
                                         functions and create an                            X               X
2005-12
            develop policies or          Information Systems
            procedures outlining         department that is
            segregation of duties        responsible for all security
            controls or procedures.      and network administration
                                         of SLGCP systems.
                                         Improve the process for
                                         notifying the Security
                                         Officer or Administrator of
                                         employee or contractor
            Application user accounts    transfers/terminations so
SLGCP-      are not removed in a         that system access to the
            timely manner after user
                                                                                            X               X
2005-13                                  ---- - - --- - ----- -- - -- --- -----
            separation.                  ------------ --------- ----- - - ---
                                         -- - --------- -- - - -- --- -- ---
                                         -------- ----------- and
                                         -- - ---- ---s removed in a
                                         more timely manner.



                 Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                                47
                                                                                      Appendix B

                        Department of Homeland Security
                    Information Technology Management Letter
                               September 30, 2005




           Department of Homeland Security
            FY2005 Information Technology
Notification of Findings and Recommendations – Detail


              Transportation Security Administration




 Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                      48
                                                                                                       Appendix B

                                             Department of Homeland Security
                                         Information Technology Management Letter
                                                    September 30, 2005

                                       Department of Homeland Security
                                        FY2005 Information Technology
                            Notification of Findings and Recommendations – Detail

                                        Transportation Security Administration

        Significant IT NFRs Which Contributed to the Overall DHS Material Weakness for
                                  Financial System Security

                                                                                                Significant Findings
                                                                                                Contributing to the
                                                                              New     Repeat       Overall DHS
NFR #               Condition                      Recommendation
                                                                              Issue    Issue   Material Weakness for
                                                                                                 Financial System
                                                                                                      Security
          -------- -- Unix change
          control process supporting          TSA management should
          --- -- -- - -- ------ -- --------   work with-- --- ------
          ------ ) and -- - - ------          management to ensure the
          -- ----- --- -- --- - -- ---        development and
          ---- -- - have weaknesses           enforcement of
          including: procedures in            configuration management
TSA-IT-   support of the finalized            procedures for developing
                                                                               X                         X
 05-003   CM policy are not                   test plans, documenting test
          developed, documentation            results, implementing
          supporting a risk                   software, management
          assessment is not                   approval of system
          maintained, formal change           changes, and retention of
          requests are not used, and          risk assessment and testing
          test plans and test results         documentation.
          are not documented.
                                              TSA management should
          Service continuity
                                              work with - --- ------
          weaknesses for -----------
                                              management to ensure the
          ----------- ------- including
                                              periodic reassessment and,
          outdated Business
                                              as appropriate, revision of
          Continuity Contingency
                                              the ---------- BCCP,
TSA-IT-   Plan (BCCP), lack of
                                              development of disaster          X                         X
 05-004   disaster recovery
                                              recovery procedures for
          procedure details, an off-
                                              ------- - ----- -- completion
          site storage location in
                                              of the relocation of the off-
          close proximity to the data
                                              site storage location, and
          center, and lack of BCCP
                                              periodic testing of the
          testing exist.
                                              BCCP.




                Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                             49
                                                                                                            Appendix B

                                                Department of Homeland Security
                                            Information Technology Management Letter
                                                       September 30, 2005

                                                                                                     Significant Findings
                                                                                                     Contributing to the
                                                                                   New     Repeat       Overall DHS
NFR #                Condition                        Recommendation
                                                                                   Issue    Issue   Material Weakness for
                                                                                                      Financial System
                                                                                                           Security
                                                 TSA management should
                                                 work with - --- ------
          No documented
                                                 management to ensure the
          procedures exist for
                                                 development of formal
          controlling the processes
                                                 entity wide procedures for
TSA-IT-   associated with the
                                                 granting, monitoring, and          X                        X
 05-005   granting, monitoring, and
                                                 terminating ----- user
          termination of user
                                                 accounts and periodic
          accounts within------ have
                                                 revalidation of------ user
          not been documented.
                                                 profiles by local security
                                                 administrators.
          -------- -- has not
                                                 TSA management should
          developed documented
                                                 work with - --- ------
          policies and procedures to
                                                 management to ensure the
          restrict access to the UNIX
                                                 development of policies and
          operating system, for
                                                 procedures for restricting
TSA-IT    monitoring access, and
                                                 and monitoring access to           X                        X
05-006    periodic reviews are not
                                                 the UNIX operating system
          performed to determine if
                                                 for ---- --- - --- - -- and
          monitoring of the UNIX
                                                 performance of period
          operating system for---- -
                                                 reviews of the monitoring
          -- ------- is functioning as
                                                 process.
          intended.
          Certification and
          Accreditations (C&A) for
                                                 TSA management should
          the ---- -- --- -- -----------
                                                 work with - --- ------
          ---- -- -- ----- --- -- ---- --- - -
                                                 management to ensure the
          -------- - -------- were not
                                                 update and completion of
TSA-IT    complete. Specifically,
                                                 the C&A process for                X                        X
05-007    security testing and
                                                 --- ---- ------ --- - ------ to
          evaluations (ST&Es) were
                                                 include the completion of
          incomplete and security
                                                 ST&Es, and the update of
          plans had not been
                                                 security plans.
          updated.

                                                 TSA management should
          -------- -- has not
                                                 work with-- --- ------
          implemented formal
                                                 management to ensure the
          procedures for the periodic
                                                 development of procedures
          management review and
TSA-IT-                                          for the regular and periodic
          monitoring of activities of                                               X                        X
 05-008                                          monitoring of high-level
          ---- - database
                                                 ---- - database administrator
          administrators and system
                                                 and system administrator
          administrators or the
                                                 activities, and the --------
          Oracle SYS accounts.
                                                 ----------------


                Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                                 50
                                                                                                    Appendix B

                                          Department of Homeland Security
                                      Information Technology Management Letter
                                                 September 30, 2005

                                                                                            Significant Findings
                                                                                            Contributing to the
                                                                          New     Repeat       Overall DHS
NFR #             Condition                   Recommendation
                                                                          Issue    Issue   Material Weakness for
                                                                                             Financial System
                                                                                                  Security
                                         TSA management should
                                         work with - --- ------
                                         management to ensure the
          The Enterprise Security        implementation of the
          Management tool                individual fixes noted in the
          identified world writeable     NFR for vulnerabilities
TSA-IT-
          directories without a sticky   identified and the institution    X                            X
 05-009
          bit set, and account           of a formal process for
          management weaknesses          performing periodic scans
          over DART.                     of the -- ---- - -- network
                                         environment, including the
                                         financial processing
                                         environment.
                                         TSA management should
                                         work with - --- ------
                                         management to ensure the
                                         implementation of the
          AppDetective identified
                                         individual fixes noted in the
          vulnerabilities on the -----
                                         NFR for vulnerabilities
TSA-IT-   database including weak
                                         identified and institution of     X                            X
 05-010   passwords, excessive
                                         a formal process for
          access permissions and
                                         performing periodic scans
          missing patches.
                                         of the -- ---- - -- network
                                         environment, including the
                                         financial processing
                                         environment.
                                         ------ - -- management
          Internet Security Systems
                                         implemented immediate
TSA-IT-   Internet Scanner identified
                                         corrective action by              X                            X
 05-011   three hosts that were
                                         removing the BrightStor
          missing patches.
                                         agent from the three hosts.
                                         TSA management should
          Inaccuracies exist within      ensure that personnel errors
          TSA personnel records          regarding separated
TSA-IT    which addresses both           employees cited during the
                                                                                    X                   X
05-012    separated employee issue       prior year audit are
          and other erroneous            corrected and
          personnel records.             documentation of corrective
                                         actions retained on file.




               Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                       51
                                                                                                      Appendix B

                                               Department of Homeland Security
                                           Information Technology Management Letter
                                                      September 30, 2005

         Remaining IT NFRs Which Contributed to the Overall DHS Material Weakness for
                                 Financial System Security

                                                                                              Remaining Findings
                                                                                              Contributing to the
                                                                            New     Repeat       Overall DHS
NFR #                 Condition                    Recommendation
                                                                            Issue    Issue   Material Weakness for
                                                                                               Financial System
                                                                                                   Security
                                               TSA management should
                                               work with - --- ------
           Formal procedures                   management to ensure the
           regarding access to the             development and
           --- --- -- - - -- --- -------       implementation of formal
TSA-IT
           ---- ------------------ ---         data center access
05-001                                                                       X                            X
           ------ - have not been              procedures and a
           established and                     formalized method to track
           implemented.                        information system-related
                                               items entering and exiting
                                               the facility.




                 Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                           52
                                                                                        Appendix C

                            Department of Homeland Security
                        Information Technology Management Letter
                                   September 30, 2005




                                      Appendix C

Status of Prior Year Notices of Findings and Recommendations
                     And Comparison To
   Current Year Notices of Findings and Recommendations




     Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                           53
                                                                                                                           Appendix C

                                          Department of Homeland Security
                                      Information Technology Management Letter
                                                 September 30, 2005

                                                                                                                        Disposition
Component NFR No. Description                                                                                     Closed       Repeat

USCIS      04-09    Access control weaknesses were identified in the----- -- - -- -------- and                                  05-04
                    were not documented as part of the Certification and Accreditation
                    (C&A) package.
USCIS      04-10    ------- - -- users at the Vermont Service Center have the ability to                            X
                    adjudicate applications as well as process payments, which are
                    considered incompatible duties.
USCIS      04-18    USCIS does not have procedures in place to periodically review                                  X
                    ------ -- ----- --- - ----------- - --- ----------------- - user access lists and
                    could not provide a list of all authorized---- -- -- users upon request.
USCIS      04-19    ------- - -- -- - ---- at the Vermont Service Center have ability to adjudicate                 X
                    applications as well as process payments, which are considered
                    incompatible duties.
USCIS      04-21    Interface controls to ensure that data transmitted by the lockbox                               X
                    operation is accurately uploaded into the National Business Center’s
                    -- ---- - --------- --- --- ---- -- -- - --- ---- - database need improvement.
USCIS      04-27    The site C&A package for the California Service Center has expired.                                         05-02



ICE        04-17    Access control weaknesses were identified in the ---- - --- ----- - - ---                       X
                    -- - --------- -- -- - ----- .
ICE        04-18    ICE does not have procedures in place to periodically review --------                                       05-07
                    ------ ----- --- - ---- ------ - - - - ---- -- --- user access lists and could not
                    provide a list of all authorized-------- users upon request.


CBP        04-01    Nineteen individual user accounts on the ------ - --------- --------                                        05-02
                    mainframe security software had excessive privileges assigned to them.
CBP        04-02    Weaknesses in the C&A process for the --- -- -- - -- -----------------                                      05-23
                    --- ----- ----- - - lack of evaluation of the need for a separate C&As for
                    applications included in the Administrative Applications C&A, the and
                    improvements needed in risk assessment guidance.
CBP        04-03    Weaknesses in disaster recovery testing and continuity of critical                              X
                    operational functions for the ----- and the --------- -- --- ---- -
                    -- - --------- -- -- - ----- ------- - - at the alternate processing site.
CBP        04-04    Excessive sensitive functions and high-risk combinations have been                                          05-18
                    assigned to ACS users.
CBP        04-05    Certain controls can be overridden in ---- -- without supervisory                                           05-04
                    approval.
CBP        04-06    Excessive access has been granted to ------ ------- - --------- - - --- --                      X
                    -- --------------- ---- -- - ----- --- -- ----- -- --- -------- ---- - ---- ----- ---------
CBP        04-07    Weaknesses in the C&A process at field sites.                                                               05-31
CBP        04-08    Improvements are needed in system logical access controls over                                              05-09
                    network assets affecting headquarters and the----- - --- ------ -- - -- ---
CBP        04-09    Interconnection Security Agreements (ISA) are not documented for 92                                         05-11
                    partners that connect with ----- .
CBP        04-10    Access is not appropriately restricted to -- --- - vendor and bank tables.                                  05-29

               Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                                54
                                                                                                                      Appendix C

                                         Department of Homeland Security
                                     Information Technology Management Letter
                                                September 30, 2005

                                                                                                                   Disposition
Component NFR No. Description                                                                                Closed       Repeat

CBP        04-11                                                                                               X
                    Weaknesses with the ------ ----- ----------- Risk Assessment.
CBP        04-12    Improvements needed in restricting access to sensitive system level                                    05-28
                    transactions through the On-Line Transaction Processing System
                    Security ------- -
CBP        04-13    ----- -- ---- - - - - --- segregation of duties issues were identified with                            05-01
                    several users.
CBP        04-14    The incident handling and response capability needs improvement                                        05-16
                    regarding incident detection and initiation, response, recovery, and
                    closure.
CBP        04-15    Audit logs are not appropriately monitored for the --- ---- - -- - ------- .               X
CBP        04-16    Weaknesses in the access control process for the------------ ------------                              05-05
                    Materials Management.
CBP        04-17    System access, user account management, and configuration                                              05-09
                    weaknesses identified with the ------ general controls environment for
                    materials management module.
CBP        04-18    Least privilege principles are not appropriately enforced for mainframe                                05-30
                    user groups’ access to sensitive datasets/utilities.


CG         04-001   Excessive access privileges were granted to the ----- Financial                                       05-014
                    Reporting System.
CG         04-002                                                                                              X
                    The ----- - - --------------- -- ------- --- ------- User Guide is outdated.
CG         04-003   Comprehensive policies for conducting personnel suitability                                           05-006
                    investigations or records to support the results of personnel suitability
                    investigations do not exist.
CG         04-004   No documented procedures exist requiring local site administrators to                                 05-011
                    control access to------- 17 user accounts have not been appropriately
                    removed for terminated employees, and local site administrators do not
                    periodically revalidate user accounts.
CG         04-005   No documented policies and procedures to restrict access to the UNIX                                  05-012
                    operating system and for monitoring access. No periodic reviews to
                    determine if current monitoring is functioning as intended.
CG         04-006   Weaknesses associated with the UNIX system software change control                                    05-010
                    process.
CG         04-007   Outdated and incomplete security plans, and C&As not performed for                                    05-013
                    the ---- -- --- -- --- ------- ------ -- ----- ----- - ------- - ------ --- ---- - ---
                    -------- -- ---- ---- ------ - - --- -- -- -- .
CG         04-008   Service continuity weaknesses for the ----- ------------- -------------                               05-009
                    ---------- - - ------ including outdated Business Continuity Contingency
                    Plan (BCCP), lack of disaster recovery procedure details, an off-site
                    storage location in close proximity to the data center, and lack of
                    BCCP testing.
CG         04-009   --------------------------- ------- and CMPlus interface errors are not                               05-026
                    automatically communicated back to the corresponding CMPlus
                    unit/user.

               Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                              55
                                                                                                                            Appendix C

                                           Department of Homeland Security
                                       Information Technology Management Letter
                                                  September 30, 2005

                                                                                                                         Disposition
Component NFR No. Description                                                                                      Closed       Repeat

CG         04-010   The security plans for the ------- -- --- -- -- --- --- --- - -- - ---- - --- -----              X
                    -------------- -- ----- are not in compliance with criteria.
CG         04-011   CMPlus passwords do not automatically expire, CMPlus accounts are                                            05-023
                    not locked out after successive invalid login attempts, and a
                    documented CMPlus system security plan does not exist.
CG         04-012   The Operations Service Center (OSC) has not implemented a disaster                                           05-022
                    recovery plan.
CG         04-013   Entity wide security program planning is not in place for the Personnel                                      05-005
                    Service Center (PSC).
CG         04-014                                                                                                                05-001
                    Weaknesses exist regarding PSC service continuity and resource
                    classifications.
CG         04-015   Weaknesses were identified at PSC relating to weak password settings,                                    05-003, 05-004,
                    lack of monitoring of access lists or changes to security profiles, and                                      05-008
                    lack of policies for monitoring operating system software.
CG         04-016   Documented procedures do not exist at PSC to enforce segregation of                              X
                    duties principles.
CG         04-017   Database Scanner identified vulnerabilities on the Supply Center                                             05-025
                    Computer Replacement (SCCR) database supporting---- --- - .
CG         04-018   The Enterprise Security Manager (ESM) tool identified high and                                               05-024
                    medium level vulnerabilities on three hosts supporting ---------
CG         04-019   Database Scanner identified vulnerabilities on the --------------------                                      05-016
                    -- --- - --- ---- ---- -- - - --- - ----
CG         04-020   ESM identified high and medium level vulnerabilities on three hosts                                          05-017
                    supporting --- ----- -- -- ---- - -- --- ----
CG         04-021   Change control weaknesses exist at the PSC, including lack of                                                05-002
                    documented test plans, test results, and software modification audit
                    trails.
CG         04-022   Several network-based vulnerabilities were identified on the external                            X
                    Information Technology resources for Coast Guard.
CG         04-023   Weaknesses were self-identified by Coast Guard on two hosts                                      X
                    supporting the ------- ----- - --- - ----- - --- - -- - - -- - -- --- -- --- -- ------ -----
                    ----- -- --- and were not subsequently addressed.
CG         04-024   Implementation and management oversight of Coast Guard’s                                                     05-027
                    information security program remains fragmented.
CG         04-025   Interface controls do not ensure that record counts match as data is                             X
                    transferred from -------- into CheckFree.
CG         04-026   Three of the four Database Administrators at ------ ---- also have                               X
                    System Administrator rights and responsibilities.
CG         04-063   Undelivered Orders – Transaction Codes: A report allowing users to                                           05-021
                    review and manually re-establish obligation was not implemented as
                    well as the manual review process. (prior year Financial Notice of
                    Finding and Recommendation)


CONS       04-01    Excessive - --- ----- -- -- --- -------- - ---- --- ------ - - --------------- system                        05-01
                    privileges were granted and a documented process does not exist to
                    notify -- - -- application administrators of user termination or transfer
               Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                                 56
                                                                                                                           Appendix C

                                           Department of Homeland Security
                                       Information Technology Management Letter
                                                  September 30, 2005

                                                                                                                        Disposition
Component NFR No. Description                                                                                     Closed       Repeat

                    for timely removal of system access.

CONS       04-02    The interagency agreement between DHS and -- ----- --- -- --- - - --- - --                      X
                    -- ------- --- ---- ----- - - -- -- ---- ---- --- ---- -- ------ - - does not describe
                    the information security controls that need to be implemented and
                    managed by the data owner (DHS) or the system operator (Treasury).
CONS       04-03    Lack of compliance with FISMA in the areas of access controls, entity-                                      05-09
                    wide security program planning and management, system software,
                    segregation of duties, and service continuity.


EPR        04-11    Policies and procedures do not exist to perform period review of                                            05-01
                    --- - ---- -- --- -- --- - --- - -- -- -- - -- --- -- --- -- --- --- ----- ---- -- --- user
                    access lists.
EPR        04-16    -- -- ----- ---- --------- --- - -- -- -- - -- --- -- ---- - - -- - - - -- - ------ ---                     05-02
                    access controls do not appropriately suspend a user’s session after ten
                    minutes of activity and user are not locked out after three unsuccessful
                    logon attempts.
EPR        04-17    The----- ------ ---- - -------- ---- had multiple weaknesses including lack                                 05-03
                    of raised floors, production and test servers in close proximity, lack of
                    review of physical user access lists, and no procedures to periodically
                    change keypad combinations.
EPR        04-18    Lack of consistent policies or processes for ensuring that all general                                      05-04
                    support system and application access, including --------- , is timely
                    removed for terminated employees.
EPR        04-19                                                                                                                05-05
                    Seven critical systems do not have a C&A.
EPR        04-20    No documented process for generating or communicating new or reset                                          05-06
                    ----- -- passwords to users.
EPR        04-21                                                                                                    X
                    -------- Table audit trail data is not reviewed periodically.
EPR        04-22                                                                                                                05-07
                    Insufficient documentation exists to fully explain -------- functions and
                    user access capabilities associated with those functions.
EPR        04-23    The ESM tool identified several high and medium level technical                                             05-10
                    vulnerabilities on the ----- --- ------
EPR        04-24    Oracle databases, including the ----- -- production and development                                         05-11
                    databases, contained weak or default passwords.
EPR        04-25    The ------- - tool identified 88 technical vulnerabilities on 13 different                                  05-12
                    FEMA hosts, the majority of which related to missing patches.
EPR        04-28    The Intra-governmental Payment and Collection System (IPAC)                                     X
                    provides for interagency billings and payments for supplies and
                    services. Of five IPAC User Request Forms selected for testing, we
                    noted one form on which the employee’s access was not specifically
                    indicated.
EPR        04-32    The Continuity of Operations Plans (COOP) for ----- -- -- -------- -- are                                   05-08
                    in draft.
EPR        04-35    ------- ------ - has not documented interagency agreements for alternate                        X

               Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                                 57
                                                                                                                   Appendix C

                                         Department of Homeland Security
                                     Information Technology Management Letter
                                                September 30, 2005

                                                                                                                Disposition
Component NFR No. Description                                                                             Closed       Repeat

                    data processing and telecommunication facilities in the event of a
                    disaster.
EPR        04-39    FEMA has not prioritized its critical data and operations, emergency                                05-09
                    processing priorities and procedures have not been documented, and all
                    resources supporting critical operations have not been identified.


LTD        04-01    Incident response policies and procedures are not in place and/or                       X
                    finalized for the FLETC--- - -- - -- --- ------------------- -- -------- .


SLGCP      04-05    A system owner and security manager has not been identified to track                    X
                    background investigations and personnel clearances.

SLGCP      04-06    A Service Level Agreement (SLA) is not in place with the third party                    X
                    hosting the Data Collection Toolkit (DCT).
SLGCP      04-07    A documented security awareness training program is not in place.                       X


SLGCP      04-08    Segregation of duties is not properly enforced and documented policies                             2005-12
                    outlining segregation of duties controls or procedures do not exist.

SLGCP      04-09    Access privileges and profiles for the --- - -- -- -------- --- - -- - --------- --     X
                    -- -- --- --------- ----- ---------- internal users are not properly
                    administered, resulting in an unnecessary number of users with the
                    ability to update the vendor table.
SLGCP      04-10    Application user accounts are not removed in a timely manner after                                 2005-13
                    user separation.

SLGCP      04-22    A C&A does not exist for the ------------ --------- -- -----                            X


SLGCP      04-25    The reconciliation process for financial transactions that occurred                     X
                    between ----- -- and the-- - - - - ---- -- ----- --- - ----- was not fully
                    implemented throughout the fiscal year.
SLGCP      04-26    The ----- - - --- ------- -- -- ----- captured transactions but did not capture         X
                    user activity for three months of the fiscal year.


TSA        04-01    Segregation of duties is not properly enforced in the -------                           X
                    ----- ------- - within---------
TSA        04-02    Weaknesses in -------- access controls, network security, and system                    X
                    security controls.
TSA        04-03    System financial integrity issues identified in the ------ application.                 X
TSA        04-04    Inaccuracies exist within TSA personnel records which addresses both                                05-12
                    separated employee issue and other erroneous personnel records




               Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                                            58
                                                                                    Appendix D

                        Department of Homeland Security
                    Information Technology Management Letter
                               September 30, 2005




                                  Appendix D

Management Response to Draft IT Management Letter




 Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                       59
                                                                                   Appendix D

                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2005




Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                      60
                                                                                   Appendix D

                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2005




Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                      61
                                                                                   Appendix D

                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2005




Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                      62
                                                                                   Appendix D

                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2005




Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                      63
                                                                                   Appendix D

                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2005




Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                      64
                                                                                   Appendix D

                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2005




Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                      65
                                                                                   Appendix D

                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2005




Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                      66
                                                                                   Appendix D

                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2005




Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                      67
                                                                                   Appendix D

                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2005




Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                      68
                                                                                   Appendix D

                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2005




Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                      69
                                                                                   Appendix D

                       Department of Homeland Security
                   Information Technology Management Letter
                              September 30, 2005




Information Technology Management Letter for the DHS FY 2005 Financial Statement Audit
                                      70
                   Report Distribution

                   Department of Homeland Security

                   Secretary
                   Deputy Secretary
                   General Counsel
                   Chief of Staff
                   Deputy Chief of Staff
                   Executive Secretary
                   Under Secretary, Management
                   Chief Information Officer
                   Chief Financial Officer
                   Chief Information Security Officer
                   Assistant Secretary, Public Affairs
                   Assistant Secretary, Legislative and Intergovernmental Affairs
                   Assistant Secretary, Policy
                   DHS Audit Liaison
                   Chief Information Officer, Audit Liaison

                   Office of Management and Budget

                   Chief, Homeland Security Branch
                   DHS OIG Budget Examiner

                   Congress

                   Congressional Oversight and Appropriations Committees, as appropriate




Information Technology Management Letter for the FY 2005 DHS Financial Statement Audit
Additional Information and Copies

To obtain additional copies of this report, call the Office of Inspector General
(OIG) at (202) 254-4100, fax your request to (202) 254-4285, or visit the OIG
web site at www.dhs.gov/oig.

OIG Hotline

To report alleged fraud, waste, abuse or mismanagement, or any other kind
of criminal or noncriminal misconduct relative to department programs or
operations, call the OIG Hotline at 1-800-323-8603; write to DHS Office of
Inspector General/MAIL STOP 2600, Attention: Office of Investigations –
Hotline, 245 Murray Drive, SW, Building 410, Washington, DC 20528; fax
the complaint to (202) 254-4292; or email DHSOIGHOTLINE@dhs.gov. The
OIG seeks to protect the identity of each writer and caller.
